<html>
<title> - ENDING VETERANS' HOMELESSNESS</title>
<body><pre>[Senate Hearing 111-497]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 111-497
                                                     
 
                     ENDING VETERANS' HOMELESSNESS

=======================================================================



                                HEARING

                               before the

                            SUBCOMMITTEE ON
           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

             EXAMINING THE ENDING OF VETERANS' HOMELESSNESS

                               __________

                           NOVEMBER 10, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html





                  U.S. GOVERNMENT PRINTING OFFICE
59-614                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
MARK R. WARNER, Virginia             JUDD GREGG, New Hampshire
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

              William D. Duhnke, Republican Staff Director

                       Dawn Ratliff, Chief Clerk

                      Devin Hartley, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

           DAVID VITTER, Louisiana, Ranking Republican Member

TIM JOHNSON, South Dakota            KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JOHN TESTER, Montana                 JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin
MARK R. WARNER, Virginia
JEFF MERKLEY, Oregon

                Michael Passante, Transit Staff Director

               Harold J. Connolly, Housing Staff Director

                 Beth Cooper, Professional Staff Member

                                  (ii)



                            C O N T E N T S

                              ----------                              

                       TUESDAY, NOVEMBER 10, 2009

                                                                   Page

Opening statement of Chairman Menendez...........................     1

Opening statements, comments, or prepared statements of:
    Senator Akaka................................................     3
    Senator Reed.................................................     3
    Senator Tester...............................................     4
    Senator Schumer..............................................     5
    Chairman Dodd
        Prepared statement.......................................    32

                               WITNESSES

Mercedes Marquez, Assistant Secretary for Community Planning and 
  Development, Department of Housing and Urban Development.......     7
    Prepared statement...........................................    32
    Responses to written questions of:
        Senator Vitter...........................................    49
Peter H. Dougherty, Director of Homeless Veterans Programs, 
  Department of Veterans Affairs.................................     9
    Prepared statement...........................................    35
Melanie Lilliston, Director of Technical Assistance and Finance, 
  National Coalition for Homeless Veterans.......................    19
    Prepared statement...........................................    39
    Responses to written questions of:
        Senator Vitter...........................................    49
Steven R. Berg, Vice President for Programs and Policy, National 
  Alliance To End Homelessness...................................    21
    Prepared statement...........................................    42
Jack S. Fanous, Executive Director and Founder, G.I. Go Fund.....    23
    Prepared statement...........................................    45
Lila M. Guy, Iraq War Veteran....................................    25
    Prepared statement...........................................    47
William Wise, Vietnam War Veteran................................    26
    Prepared statement...........................................    48

                                 (iii)


                     ENDING VETERANS' HOMELESSNESS

                              ----------                              


                       TUESDAY, NOVEMBER 10, 2009

                                       U.S. Senate,
    Subcommittee on Housing, Transportation, and Community 
                                               Development,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Subcommittee met at 10:05 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Robert Menendez (Chairman of 
the Subcommittee), presiding.

         OPENING STATEMENT OF CHAIRMAN ROBERT MENENDEZ

    Chairman Menendez. This hearing of the Subcommittee on 
Housing, Transportation, and Community Development will come to 
order.
    Our first order of business, I would ask all of us to take 
a moment of silence to remember the soldiers who were 
tragically killed and wounded at Fort Hood.
    [Pause.]
    Chairman Menendez. Thank you. Our hearts go out to them and 
to their families today as they and many from across the 
country attend a memorial service in Texas.
    Let me say, we decided to stay and move forward with this 
hearing to honor all those veterans to whom we owe so much and 
who deserve the full attention of a grateful Nation. Having 
said that, let me welcome our distinguished panelists this 
morning. I would also especially like to recognize two veterans 
who will be on our second panel this morning, Ms. Lila Guy, a 
veteran of Operation Iraqi Freedom from Philadelphia, who I 
know has a compelling story to tell, and Mr. William Wise from 
Winslow, New Jersey, who served in Vietnam and was himself 
homeless for a time after his return. We look forward to 
hearing their firsthand testimony on the pressures on returning 
veterans and the thin line that exists between survival and 
despair.
    To me, the crisis we face is no less than a national 
disgrace represented by the haunting image of 131,000 veterans 
on the streets of America on any given night. A hundred-and-
thirty-one-thousand men and women who served this Nation in 
uniform, American heroes huddled over a heating grate in the 
shadow of the Washington Monument, or curled up on a bench by 
the war memorials on the Mall in Washington, or trying to find 
shelter in cities across America.
    What is more troubling than the images is the statistics. 
The VA estimates more than 260,000 veterans will be homeless at 
some point during the course of a given year, and a staggering 
25 percent of all homeless in this country--one in four--are 
veterans. With increasing numbers of veterans coming back from 
Iraq and Afghanistan last year, the number of veteran families 
that found themselves homeless increased 24 percent because of 
difficult economic times.
    We also know that nearly 600,000 veterans who do have 
housing are paying more than 50 percent--50 percent--of their 
monthly income in rent, and may well be at risk of becoming 
homeless in the next year.
    The Federal Government, in my view, is not doing nearly 
enough when so many new veterans are falling through the 
cracks. These new veterans are facing a range of issues that 
veterans of other wars have not faced. They have difficulty 
reintegrating. Like many Americans, they can't find a job. They 
can't find decent, affordable housing. And the current system 
of dealing with their needs is being overwhelmed. I think we 
can say with certainty that veterans' homelessness is a 
national disgrace and we need to address it.
    Now, last week, Secretary Shinseki began to do just that. 
He outlined a 5-year plan, which I hope we will discuss today. 
Secretary Shinseki addressed a wide range of issues, everything 
from supportive services for low-income veterans to the Post-9/
11 G.I. Bill. Also last week, the VA and DOD cosponsored a 
summit to coordinate the need to aggressively diagnose and 
treat the unseen but devastating wounds of war that all too 
often lead to homelessness. These are positive steps, but I am 
looking forward to learning from our panelists what more steps 
we can take and what our priorities should be.
    I am pleased to say that Congress has been proactive on 
veterans' homelessness. Senator Schumer and Senator Jack Reed 
have both worked tirelessly on this issue. Senator Schumer's 
Home for Heroes Act and Senator Reed's Zero Tolerance for 
Veterans Homeless Act focus a laser-sharp light on veterans' 
homelessness and all the accompanying issues that have forced a 
growing number of veterans to live on the street.
    So let me conclude by saying what I said at the outset. I 
am haunted by the image of homeless veterans sleeping in our 
cities every night, men and women who wore the uniform and 
bravely stood a post in some far-off land in the middle of the 
night. And I am haunted to think that they now come home, some 
here to Washington, only to spend their nights in the shadow of 
the very monuments to freedom, justice, and equality for which 
they fought, looking for help and a little help, perhaps lost, 
but certainly not forgotten by a grateful Nation.
    So I want to thank our witnesses for joining us today. We 
look forward to a productive hearing that we will then build 
upon to seek legislative results.
    And with that, let me recognize Senator Akaka, who has done 
so much work in this regard as the Chairman of the Veterans 
Affairs Committee, and we appreciate his leadership, and, of 
course, as a Member of this Committee, combines two very 
powerful opportunities to help our homeless veterans. Senator 
Akaka.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Chairman Menendez, for 
having this very important hearing on homelessness today. I 
really appreciate, Mr. Chairman, your interest in the issue.
    I also greatly admire Secretary Shinseki's commitment to 
ending homelessness. As the Chairman mentioned, Secretary 
Shinseki has a plan to work on homelessness in the period of 5 
years and is proceeding quickly on that.
    As Chairman of the Senate Committee on Veterans Affairs, I 
have worked to strengthen VA's homelessness and housing 
programs. Currently on the Senate calendar is my Caregivers and 
Veterans Omnibus Health Services Act of 2009. As you know, we 
have been trying to have it on the floor to work on, and we 
haven't been able to do it because one of the members of the 
Senate has been holding it up. Title VII of the legislation 
contains a number of provisions designed to enhance and improve 
VA efforts to address the overall problem and to provide 
assistance to homeless veterans.
    Additionally, a few weeks ago, the Senate Committee on 
Veterans Affairs held a hearing on pending legislation which 
highlighted a bill that was proposed by Senator Murray of the 
State of Washington, and it is entitled Homeless Women Veterans 
and Homeless Veterans with Children Act of 2009, and also a 
bill that is proposed by Senator Reed, and that is entitled the 
Zero Tolerance for Veterans Homelessness Act of 2009. So we are 
focusing on the homeless here.
    I look forward to continuing to work with the Members of 
the Subcommittee, members of the Veterans Affairs Committee, 
and the Administration to assist homeless veterans in accessing 
affordable housing and support services so that they are able 
to find and remain in their homes. It is essential that we 
continue to address the underlying causes of homelessness, such 
as lack of mental health services, affordable housing, and 
sustainable employment.
    I thank the witnesses for appearing today and thank you 
very much, Mr. Chairman.
    Chairman Menendez. Thank you, Senator Akaka, and thank you 
for your leadership.
    Let me recognize Senator Reed, who I mentioned in my 
opening statement on legislation and we appreciate his 
leadership on this.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, and 
thank you for your leadership in convening this hearing. I 
particularly want to recognize Senator Akaka, who has been a 
leader in veterans affairs for many, many years and Chairs the 
Committee and is someone who has done a remarkable amount of 
work on behalf of our veterans.
    It is unfortunate, to say the least, to recognize the fact 
that there are thousands and thousands of veterans who are on 
the streets of America. I was particularly moved by a comment 
by the Chairman of the Joint Chiefs of Staff, Admiral Mullen, 
who was out in San Diego and met with a group of 20 or 30 
homeless veterans, and they were veterans of Iraq and 
Afghanistan. So this is not a phenomenon of people who sort of 
lost their way years ago and have difficulties. This is a real 
and growing problem. And we have to commit ourselves to an all-
out effort to help these young men and women and not-so-young 
men and women. This is a phenomenon that stretches through 
every conflict we have had and they are on the streets of 
America today.
    I am encouraged by the President's commitment and I am 
certainly encouraged by Secretary Shinseki, who understands 
this issue not just from a policy perspective, from a deeply 
personal perspective, as a soldier's soldier. And I was 
pleased, as Senator Akaka mentioned, to introduce along with 
Senator Bond, Senator Johnson, and Senator Murray the Zero 
Tolerance for Veterans Homelessness Act. It contains housing 
provisions that would be important. The VA would be authorized 
to provide Rapid Re-Housing benefits, like short-term rental 
assistance and housing relocation and stabilization services. 
And they would authorize in this legislation additional housing 
vouchers through HUD to get veterans off the streets and into 
homes.
    But I think, also, given the tragic events of the last 
week, we understand that housing alone is not the solution. 
Housing has to be wedded to services and we have to integrate 
our approach. We have to be supportive as well as sheltering, 
and that should be the goal and we should not stop until we can 
say that there are virtually no veterans on the streets of 
America. Thank you.
    Chairman Menendez. Thank you, Senator Reed.
    Senator Tester.

                STATEMENT OF SENATOR JON TESTER

    Senator Tester. Thank you, Chairman Menendez. I want to 
echo my thanks for you holding this hearing.
    I also want to associate myself with Senator Reed's 
comments as concerns Senator Akaka. Senator Akaka is very much 
a leader when it comes to veterans in this country and I 
certainly appreciate that leadership, whether it is here in 
this Committee or on the VA Committee.
    When veterans don't get the benefits they deserve, that is 
distressing enough. When we have veterans that are homeless, 
that is totally unacceptable, and I think we can all agree on 
that.
    We have different groups out there that are trying to 
address the needs of homeless veterans. One of them is the 
Poverello Center in Missoula, Montana. They have got a great 
Executive Director there who has done some great work 
addressing the issues of homeless veterans. I toured the Pov 
about a year ago and we talked a little bit about the veterans 
and veterans they could help and so many that they couldn't 
help because they were slipping through the cracks. We talked 
about a local homeless veteran who was beaten to death, another 
one who couldn't find help and ultimately froze to death. The 
issues that evolve around homeless veterans are huge and they 
are real and they are unacceptable.
    When the President talks about the need for increased 
assistance, funding shelters and services for homeless 
veterans, I couldn't agree more, because we have seen the 
overcrowding. We have seen the loss of dignity, in some cases, 
the outright discarding of men and women who have made the 
sacrifice for this country. We need to do more to help homeless 
veterans to obtain permanent housing and address their health 
concerns.
    In the United States, there are over 131,000 homeless 
veterans on any given night. There is a tendency to look at the 
homelessness as an urban problem. It is not. In Montana, where 
we have more veterans per capita than almost any other State, 
there are 168 veterans currently on waiting lists--the ones we 
know of--waiting for shelter. They may not live in a big city, 
but their problems are just as real and our obligation to help 
them is just as real, especially in a State like Montana where 
in the wintertime it gets bitterly cold.
    This may not seem like a lot to some, but these men and 
women are more than just names on a list. I am going to cite 
some of them, veterans like Richard Roy Jones, a Native 
American who was honorably discharged from the military. He is 
a homeless veteran. He drowned in the Clark Fork River around 
Missoula last July. He served in the Marine Corps in 1980 to 
1983. Richard Roy Jones was on the waiting list to get into the 
Valor House. He finally made it to eighth in line on that list. 
After months of trying to succeed under the constraints of an 
overcrowded shelter, he succumbed to mental illness and the 
elements. A local media report described him as a local 
transient. He was much more than that and we failed him, just 
plain and simple.
    Rural communities often face a challenge of limited 
resources. They are underserved by health professionals who can 
treat the underlying problems that contribute to the veterans' 
homelessness. In Montana, weather extremes and great distances 
further complicate that issue. That is why I am going to 
cosponsor the bill that we are discussing today, S. 1547, Zero 
Tolerance for Veterans Homeless Act of 2009, and continue 
pushing for the passage of S. 1963, which is still being held 
by a single Senator.
    I know the hard work that professionals are doing around 
Montana to take care of our homeless veterans, but it is not 
near enough. We must provide them with the resources they need 
to make sure veterans do not become victims of the elements, 
crime, hunger, substance abuse, or treatable mental illness. We 
absolutely have to do more.
    With that, Mr. Chairman, thank you.
    Chairman Menendez. Thank you, Senator Tester.
    Senator Schumer.

            STATEMENT OF SENATOR CHARLES E. SCHUMER

    Senator Schumer. Mr. Chairman, thank you so much for 
holding the hearing today on ending veterans homelessness. I 
want to thank you, as Chair of the Housing Subcommittee, and 
Senator Akaka, who Chairs the Veterans Committee, for the great 
leadership that you have shown in this area.
    The crisis of veteran homelessness has never been worse in 
our country, and frankly, we face a moral responsibility to 
address it as soon as possible. The Department of Veterans 
Affairs recently reported that on any given night, 
approximately 131,000 male and female veterans are homeless. 
Over the course of the year, over 330,000 veterans face 
homelessness.
    I was reminded of these staggering statistics on a visit I 
made last year to the historical Camp Shanks in Rockland 
County, New York, also known as Last Stop, USA. Camp Shanks 
served as one of the largest Army embarkation points in the 
United States during World War II. Approximately 1.3 million 
soldiers attended camp for processing before being deployed to 
serve our country in Europe.
    At present, Camp Shanks is in an area that is surrounded by 
well over 7,000 homeless veterans. A local community group 
called Homes for Heroes, led by Rockland County legislator John 
Murphy, has proposed a development that would include 50 units 
of affordable housing and supportive services designated for 
homeless veterans in the area. Projects like this underscore 
the need for additional Federal assistance for places like 
Rockland County to address veterans homeless issues, bolster 
efforts already underway, and offset the cost of constructing 
and properly maintaining the property.
    Legislation introduced by then-Senator Barack Obama in the 
109th Congress addressed this need for adequate housing for our 
Nation's homeless heroes. I was asked to carry the torch for 
this legislation, Homes for Heroes, this session because it 
recognizes that in order to combat and prevent veterans 
homelessness once and for all, we must take a comprehensive 
approach and use all the tools at our disposal and partner 
affordable long-term housing with supportable clinical 
services. I would like to thank Senators Menendez, Durbin, 
Brown, Begich, Bingaman, Gillibrand, Kerry, Lautenberg, Tester, 
and Udall for cosponsoring this legislation. A House companion 
of this legislation was introduced by Representative Green of 
Texas earlier this year.
    Here is what the legislation does. First, it expands 
existing Federal programs by authorizing 20,000 new HUD 
Veterans Affairs Supportive Housing Program Vouchers annually 
through fiscal year 2013 and makes the program permanent.
    Second, Homes for Heroes also creates a new assistance 
program that provides grants for community and nonprofit 
organizations to purchase, build, or rehabilitate housing for 
low-income veterans, just like Camp Shanks. In addition, these 
organizations would supply supportive services, including 
substance abuse and mental health counseling, vocational and 
employment training, transportation, child care, and other 
services independently. By providing Federal funding to these 
community groups, housing projects like Camp Shanks could 
become a realistic endeavor and end veteran homelessness.
    Third, Homes for Heroes establishes special assistance for 
Veterans Affairs at HUD to coordinate services in housing with 
the Veterans Affairs Department and work with public housing 
authorities to create a plan to address the needs of homeless 
veterans.
    I would also like to recognize, in addition to all of my 
cosponsors, that while my legislation uses different methods to 
address veterans homelessness, Senator Reed's legislation and 
ours seeks to achieve similar goals, and I look forward to 
working with Senator Reed, who has done great work in this 
area, as well, in the future to combine our two approaches.
    It is imperative that Congress acts quickly to address 
these challenges and work with the Administration to end 
veterans homelessness. Our veterans needed our Nation's call. 
The least we can do as a Nation is ensure they have a roof over 
their head in the Nation they fought to protect.
    Thank you, Mr. Chairman. I look forward to today's hearing 
and the prepared testimony from the witnesses.
    Chairman Menendez. Thank you, Senator Schumer. I thank all 
my colleagues for their statements and their advocacy and their 
respective leadership together. This is a lot of firepower. We 
can get something done here.
    With that, let me recognize our first panel. Let me welcome 
our first witness to testify, Assistant Secretary Mercedes 
Marquez. Ms. Marquez is the Assistant Secretary for Community 
Planning and Development at the U.S. Department of Housing and 
Urban Development. Her office is charged with administering 
several homelessness programs at HUD. We welcome you.
    And our second witness is Mr. Peter Dougherty, the Director 
of Homeless Programs of the Department of Veterans Affairs. Mr. 
Dougherty's office takes a proactive approach in identifying 
homeless veterans in need and administering programs to help.
    We welcome you. We would ask you to summarize your 
testimony for about 5 minutes apiece. Your full statements will 
be included in the record. It will give us some time to have 
our colleagues have a question and answer session with you.
    Ms. Marquez.

    STATEMENT OF MERCEDES MARQUEZ, ASSISTANT SECRETARY FOR 
 COMMUNITY PLANNING AND DEVELOPMENT, DEPARTMENT OF HOUSING AND 
                       URBAN DEVELOPMENT

    Ms. Marquez. Chairman Menendez, Members, I am pleased to be 
here with you today representing the Department of Housing and 
Urban Development. As you said, I am the Assistant Secretary 
for Community Planning and Development, and I oversee, among 
other things, the Department's efforts to confront the housing 
and service needs of homeless persons, including homeless 
veterans and their families. We strongly support our sister 
agency at the Department of Veterans Affairs in achieving their 
new goals.
    The Department administers a variety of programs that can 
serve veterans. These including the Housing Choice Voucher 
Program, the HOME Program, and the CDBG Program. These programs 
provide great flexibility so that communities can use these 
Federal resources to meet their local needs.
    In addition to these programs, Congress has also authorized 
a variety of targeted programs for special needs populations, 
including persons who are homeless. HUD provides assistance in 
a variety of ways.
    In February of 2009, HUD competitively awarded 
approximately $1.4 billion in targeted Homeless Assistance 
Grants. A record 6,336 projects received awards. Veterans are 
eligible for all of our homeless assistance programs, and HUD 
emphasizes the importance of serving veterans in its grant 
applications. Communities may submit veteran-specific projects 
or projects that support a general homeless population that 
includes veterans. In this past competition, HUD awarded 136 
projects that specifically target veterans. In addition, over 
1,000 projects were awarded that would serve veterans and 
others.
    The Congress provided $75 million in both 2008 and in 2009 
for the HUD Veterans Affairs Supportive Housing Program, the 
HUD-VASH Program. HUD-VASH combines HUD Housing Choice Voucher 
rental assistance with homeless veterans with case management 
and clinical services provided by the VA at its medical 
centers. Through this partnership, HUD and VA will provide 
permanent housing and services for approximately 20,000 
homeless veterans and their family members, including veterans 
who have become homeless after serving in Iraq and Afghanistan. 
HUD-VASH will make a significant impact on those who have 
bravely served this great Nation and who have been left on the 
streets.
    Through the ARRA funding, you have provided an 
unprecedented level of funding to HUD and other Federal 
agencies. Overall, HUD is responsible for $13.6 billion ARRA 
funds for housing and community development. The ARRA 
Homelessness Prevention and Rapid Re-Housing Program, or HPRP, 
provides $1.5 billion to communities nationwide. These funds 
can be used to both prevent homelessness and to rapidly rehouse 
persons who have become homeless. In designing the program, we 
specifically allowed and highlight that HPRP can be used to 
help homeless veterans access HUD-VASH by, for instance, 
providing the security deposit needed to obtain housing with 
the voucher.
    The recently enacted Homeless Emergency Assistance and 
Rapid Transition to Housing Act, or the HEARTH Act, provides 
unprecedented flexibility to confronting homelessness. The Act 
consolidates HUD's existing competitive homeless programs into 
a single streamlined program, the Continuum of Care Program. 
The program requires that all of the stakeholders, including 
veterans' organizations, determine how the funds should be 
used. In essence, we are combining all the competitive programs 
and the HEARTH Act also makes special provisions with the Rural 
Housing Stability Assistance Program to provide targeted 
assistance to rural areas. Combined, these new programs will 
provide communities with greater flexibility to prevent and end 
homelessness, including veterans.
    The 2009 Appropriation Act provided HUD with $10 million 
for a demonstration program to prevent homelessness among 
veterans as part of the appropriation for HUD's homeless 
programs. HUD is working with the VA to design and implement 
this initiative. It is intended to conduct an evaluation of 
this demonstration and then share the results. We will share it 
widely through HUD's technical assistance resources to 
organizations serving veterans.
    In essence, we are collaborating. Secretary Donovan, 
Secretary Shinseki, they are working together on the Council to 
end homelessness. Secretary Donovan has now taken the torch 
from Secretary Shinseki as the chair and we are working very 
closely together. I can tell you actually that it is pretty 
much every day conversation between the staffs at HUD and VA on 
all these programs, and that is really not an exaggeration. 
Pretty much every day, there is conversation and work going on 
between our agencies.
    In the end, we are also working to reach out to veterans 
organizations. We have established the HUD Veterans Resource 
Center. It is headed by a veteran. We have a 1-800 number to 
take calls from veterans and to help address their individual 
needs. The Resource Center works with each veteran to connect 
them to resources within their own community.
    In conclusion, I want to reiterate our support, our desire, 
and our commitment to help end homelessness among our veterans 
and by working effectively with our Federal partners and 
yourselves. Thank you very much.
    Chairman Menendez. Thank you.
    Mr. Dougherty.

STATEMENT OF PETER H. DOUGHERTY, DIRECTOR OF HOMELESS VETERANS 
            PROGRAMS, DEPARTMENT OF VETERANS AFFAIRS

    Mr. Dougherty. Thank you, Mr. Chairman. We appreciate the 
opportunity to be here today. As you indicated, tragically, 
there are, we believe, about 131,000 homeless veterans who are 
without an appropriate place to stay. While progress has been 
made, just a few years ago we were reporting closer to a number 
of 200,000, that is still far too many.
    VA's goal and our objective is to have ``no wrong door,'' a 
no wrong door approach to the assistance that can be provided 
so that whether a veteran gets assistance from us, the 
Department of Veterans Affairs, or from community partners 
through contracted services, we want to make sure those 
services are available.
    VA, as you know, has the largest integrated health care 
network in the country and this year, we are targeted to spend 
approximately $3.2 billion on homeless veterans, including $2.7 
billion for health care services, and a little more than a 
half-a-billion dollars for targeted programs for homeless 
veterans.
    The 5-year plan that has been discussed is an ambitious 
goal to end homelessness among veterans within 5 years. The 
Secretary's plan includes bold new measures that will both 
serve those who are seriously impaired and, in a major shift 
for us, attacking the problem with preventive measures, like 
discharge planning for incarcerated veterans reentering 
society, supportive services grants for low-income veterans and 
their families, a national referral and call center to link 
veterans to local services, and the partnership the Assistant 
Secretary just spoke about with veterans who are recently 
separated.
    Thanks to the support of the Congress and the leadership at 
the Department of Housing and Urban Development, the first 
20,000 units of HUD-VASH are now out. I think as you will hear 
later today, this has had a great impact because it has given 
us a great opportunity to provide health care services to 
veterans while at the same time making sure the veteran and, 
veterans with families, have a place to stay. To date, about 11 
percent of those units are occupied by a woman veteran and 12 
percent of those units are occupied by veterans with children. 
On average, 1.7 children are in each of those homes.
    Our continuing efforts are to work with the more than 600 
community organizations who provide transitional housing to 
more than, we believe, 20,000 homeless veterans who will get 
that assistance this year. We work closely with the 240 Public 
Housing Authorities with the HUD-VASH Program. Earlier this 
year, we have opened a new National Center on Homelessness 
Among Veterans, which is really a research opportunity that we 
have not had available to make sure that we are providing 
timely assistance to veterans.
    We continue to work with our Grant and Per Diem Program. We 
activated more than 1,100 beds this past year. The Secretary 
just announced a month ago that we have awarded grants that 
will create nearly 1,200 new transitional housing beds this 
year.
    We have expedited claims, because part of this is about 
getting veterans benefits; but it is also about getting them 
back to gainful employment once again.
    Regarding the newest generation of veterans, we have seen 
nearly 4,000 veterans in our outreach effort who had served in 
Iraq and Afghanistan. About a thousand of them have used 
homeless-specific programs.
    We are working, with some of the nearly 40,000 veterans who 
come out of institutional and correctional settings every year. 
We are working very closely with courts and the criminal 
justice system.
    We are also working very closely with keeping veterans in 
their housing if they already have housing. The Supportive 
Services Grant Program that we have will do much more to make 
sure that those veterans are able to stay in housing and never 
become homeless in the first place.
    Housing, health care, jobs, education, these are all 
critical areas where VA is focusing to address the needs of 
homeless veterans. We work very closely with our colleagues at 
the Department of Housing and Urban Development, but also with 
Labor, HHS, U.S. Interagency Council on the Homeless, and the 
others.
    I know the Congress, the Secretary, the President, are all 
committed to ending veteran homelessness. No one who served our 
Nation, especially those who have worn our military uniforms, 
should ever find themselves without care and without hope. We 
know there are never any absolutes in life, but we have set an 
ambitious target and we are going to give our best effort as we 
moved forward.
    Again, we thank you for the opportunity to testify and I am 
happy to answer any questions you may have.
    Chairman Menendez. Thank you both for your testimony.
    We will start a series of 5-minute rounds of questions, and 
the Chair will recognize himself to start off with.
    Let me just say, I appreciate both of your testimony and I 
certainly am enthused by hearing about the coordination, Ms. 
Marquez, that you mentioned. But, you know, I wonder--and I 
understand this Administration is only 10 months old, so I 
start from that starting point, I grant that--but I wonder, how 
is it that with the wide array of programs you both described, 
that we have 131,000 homeless veterans, that we may have at any 
given time during the course of a year 260,000 homeless 
veterans, that we have 600,000 veterans who have a home but pay 
over 50 percent of their income toward rent, which is 
astronomical. What is it that we are not doing right that, in 
fact, leads us, despite the array of programs, leads us to that 
reality?
    You know, one of the witnesses on the next panel will say 
that the fragmentation of these programs is a challenge, and 
so, you know, I am wondering if you can talk about, first of 
all, what is it that leads us, notwithstanding all of these 
resources and these programs, to still face the alarming 
statistics that I think are a national disgrace?
    And second, what are we doing to coordinate and to 
integrate these programs so we are being successful at our goal 
here, which is to have a home for those who serve the country? 
Why don't we start there.
    Mr. Dougherty. Let me start off, Mr. Chairman, because I 
think what you have done in the last 2 years has given us a 
tool that we did not have before, and that is the opportunity 
for veterans to get into permanent housing with case management 
services from VA. I think the HUD-VASH Program has given us, 
20,000 units now, it looks like the Congress is poised perhaps 
to give us another 10,000 units. That is a critically important 
piece of what needs to occur as we move forward.
    Our Transitional Housing Programs have been effective. They 
have been good. We are continuing to increase them. But HUD-
VASH, the opportunity to give that veteran a permanent housing 
place has been very helpful, and it has been very helpful 
particularly for those veterans that have families and have 
children, because historically, VA has been constrained and our 
programs have not been very family friendly. So HUD-VASH has 
been a good thing.
    The other is what you have done this past year is given us 
the authority to provide supportive services grants, and that, 
we think, is going to have great long-term impact, because as 
was said by the Senators earlier, about 650,000 veterans, we 
believe, are low income and are just that paycheck away from 
perhaps losing that housing. And so as we are looking to ramp 
up and increase that opportunity to provide assistance in the 
community for those veterans, we think that will have long-term 
benefits, as well.
    Chairman Menendez. So HUD-VASH, you consider that a 
success?
    Mr. Dougherty. HUD-VASH, I think, is remarkably successful 
as to what we have been able to start.
    Chairman Menendez. One of the things that I am enthused 
about the 5-year plan is that it also talks about prevention of 
homelessness. Our ultimate goal is not only to give all of 
those who are homeless a home, but is to prevent this from 
happening. What is it that the Administration can do to prevent 
homelessness before it begins? What are some of your 
initiatives in that regard?
    Mr. Dougherty. Well, besides the Supportive Services Grants 
that I mentioned a moment ago, we are now getting fully engaged 
in doing more with veterans who are discharging from 
institutional settings, particularly those who are coming out 
of correctional settings, because we know a significant 
percentage of them go in with mental illness and substance 
abuse problems. They are coming out now with a criminal arrest 
record history, as well. They have multiple strikes against 
them.
    Last year, we intervened in about 4,500 cases of veterans 
who were coming out of institutional settings. Besides those 
who are in institutional settings, we are now moving into 
working more with court diversion programs. Many years ago, I 
was a magistrate court judge, and one of the things that I 
think this gives us an opportunity to do is to say to that 
veteran, who really needs health care and assistance, that if 
we can get you into treatment and get those problems addressed 
that will be less likely to set you into homelessness. You will 
have a much better opportunity to move on with your life, get 
back into employment, and take on responsibility.
    Chairman Menendez. If there is a veteran or the family of a 
veteran or a neighbor of a veteran who is homeless or facing a 
challenge right now, is there a 1-800 number that we could give 
them right now?
    Mr. Dougherty. Any veteran can contact us by the 1-800-827-
1000 number.
    Chairman Menendez. One-800-827----
    Mr. Dougherty. One thousand.
    Chairman Menendez. ----1000.
    Mr. Dougherty. Mr. Chairman, as you talk about prevention, 
one of the things that we are doing is we are hooking up with 
the suicide hotline that goes out across the country that works 
as a collaborative with the Department of Health and Human 
Services and the Department of Veterans Affairs. About 20 
percent of the veterans who call that number may have some 
suicidal tendency, but many times, they are calling because 
they have a homeless issue. We are matching up with the veteran 
portion of those calls, because what we want to be able to do 
is to be able to respond immediately to that veteran who is in 
crisis and get them into a program and services, because one of 
the other things that we are doing is more preventive activity 
that Senator Tester was talking about.
    We have a sixfold increase in contract residential care. 
What we want to be able to do is to get to the point that when 
veterans are coming to us and they need assistance, we will be 
able to provide some assistance to them today, not to say, come 
back at some time in the future or go on a waiting list to get 
assistance.
    Chairman Menendez. Thank you.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman, and 
thank you, Madam Secretary and Mr. Dougherty.
    Let me first ask, Mr. Dougherty, one of the lessons that we 
have learned with respect to homelessness is to get the 
sickest, most complicated individuals who are homeless the 
longest into permanent supportive housing and to do this 
without preconditions or requirements that would otherwise 
screen out these people. And again, that is a tension between 
the decorum in the facility and getting these people off the 
street.
    Are you embracing this approach of housing first, of 
literally getting the most difficult, challenging cases off the 
street? Can you elaborate on your approach?
    Mr. Dougherty. Yes, Senator Reed, we do that. We are 
looking, and unlike some, we have a long history of both the 
health care needs of these veterans and an opportunity to make 
an assessment of what their needs are. We, in fact, do look to 
try to make sure that those who are in the greatest need get 
those services. And we don't have preconditions. We want to 
make sure this is an appropriate veteran who will come in, and 
as the law requires, we will participate in ongoing health care 
services. What we don't want to do is just put somebody in 
housing without services because we don't think they are going 
to get better or do well. But we will take anybody into this 
program as long as they are interested in continuing to get 
ongoing services.
    Senator Reed. Let me follow up. How could having resources 
for Rapid Re-Housing initiatives, such as short-term rental 
assistance, security deposits, utility payment, help in your 
efforts? That is one of the aspects of the legislation I have 
proposed.
    Mr. Dougherty. Well, it helps tremendously because, we know 
that there are two groups of veterans that it would help. We 
have run across an increasing number of veterans who are having 
a difficult time right now that perhaps some short-term 
assistance would keep them from ever becoming homeless in the 
first place. And we also know that that assistance is very 
helpful to help get some of those veterans who are sliding into 
homelessness or have slid into homelessness.
    One of the things that we are hoping prior to your 
legislation is to try to use authority in the Supportive 
Services Grant money we have. We will give some money and the 
grantees will be able to use that money to help get veterans 
into housing who would otherwise be able to get into housing 
but don't have money for security deposits and those things. We 
work closely, as the Assistant Secretary has said, with Rapid 
Re-Housing, but we also know that in many communities, it is a 
community decision as to what they are going to do with that 
money and so we want to make sure that there is adequate 
resources to get those veterans taken care of.
    Senator Reed. Thank you.
    Let me turn to the Secretary, and I know you are both 
committed, not just individually, but as organizations, to help 
our veterans. But what are the challenges that you have 
perceived--both of you, but I will start with the Secretary--in 
veterans accessing HUD programs, and specific strategies that 
collectively you are weighing to address these difficulties? 
Madam Secretary?
    Ms. Marquez. Thank you for the question. I think I would 
start by saying that up until the efforts of the last 2 years, 
there was not a great bridge between the HUD programs and the 
VA programs. The HUD-VASH has created a bridge. The Rapid Re-
Housing elements have strengthened it, because with Section 8 
there is not money there for any kind of deposit for the 
utility assistance that you spoke of. The Rapid Re-Housing 
money now ties the Section 8 voucher to the money that gets you 
in and keeps you in the housing and services that the VA is 
offering. So now there is a real bridge and a real path to 
walk.
    I would also say that in any effort, any strategy on this, 
you have to decide where you are going to draw your line. And 
as you have spoken about how all the numbers continue, you have 
to decide, where are you going to start the intake process on 
those that are coming back, whether it is that they are coming 
back from the field or they are coming out of another 
institution, how you are going to catch them there, do the 
intake and assessment properly there, and then how are you 
going to look back at those that now have more chronic issues.
    The money that we have at the moment, the types of programs 
that we have now are allowing us to keep that line. That is 
something we did not have before. Without having enough 
resources to focus on prevention, essentially, then, everyone 
is dropping back into the deeper problems, and then that is 
more costly and more difficult to work both with the individual 
and their families.
    Senator Reed. Thank you, Madam Secretary.
    Just a quick comment, Mr. Dougherty, from your perspective?
    Mr. Dougherty. I think, Senator, that the issue of having 
dedicated vouchers for veterans has been terrific and the other 
provisions that you put in that would allow us to serve those 
veterans. I think what has happened here is we have been able 
to do the best of two things. The Department of Housing and 
Urban Development obviously is the lead and does good housing. 
We provide lots of good health care and other services. And so 
the ability for us to tie each veteran in each housing unit 
with the best of both of what we do is the secret to success.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman Menendez. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank both of you for the work you do. It is 
critically important work, I think, as we move forward to 
address the issue.
    Mr. Dougherty, I think I will start with if the VA has a 
policy regarding VA-funded contractors who provide shelter to 
veterans, are they, or do they--it is a two-edged sword--do 
they allow the shelter to take in intoxicated veterans?
    Mr. Dougherty. Are you talking about our Grant and Per Diem 
Program, the Transitional Housing Program?
    Senator Tester. I am talking about Grant and Per Diem 
Program.
    Mr. Dougherty. Yes. In the Grant and Per Diem Program, 
there is a provision in law that says sobriety. That doesn't 
mean I can't come in, having been drinking, but there is a 
sobriety provision in the law for that program. So I have to 
try to achieve and maintain sobriety.
    Senator Tester. Right, and so how--I mean, do you give any 
sort of consultation to folks who run these shelters about--I 
mean, I get it. I understand it. You don't want somebody that 
is not sober coming into a place where it is safe. On the other 
side of the coin, you don't want to kick them out if it is 20 
below zero, or even if it is 20 above zero, you don't want to 
kick them out. You don't want to kick them out, period.
    Mr. Dougherty. Right.
    Senator Tester. What kind of counsel do you give to them?
    Mr. Dougherty. Right. We should, if the veteran can't 
continue to stay in there because they are not complying with 
the requirements----
    Senator Tester. Yes.
    Mr. Dougherty. Then the VA should be working with that 
provider to work on an appropriate discharge plan. Our plan 
should not be just simply to put that person out. The plan 
should be what can that veteran get in the way of additional 
treatment outside of there.
    Senator Tester. So where do they go? Where does the head of 
that shelter, where does the administrator of that shelter go?
    Mr. Dougherty. Every Grant and Per Diem Program has a 
liaison who is a clinical case manager who is supposed to work 
with them.
    Senator Tester. OK, and that is pretty much across the 
board, even in rural areas?
    Mr. Dougherty. Yes.
    Senator Tester. OK. You had spoken about 40,000 veterans 
coming out of corrections every year, is that correct?
    Mr. Dougherty. Yes.
    Senator Tester. This may not be in your bailiwick, but does 
the VA work with those folks while they are incarcerated?
    Mr. Dougherty. We are prohibited under law from providing 
direct health care services while they are in incarceration. 
What we do now is we go in when there is a release pending to 
work on a discharge planning process. That is not considered to 
be sort of direct hands-on health care services.
    Senator Tester. What about just consultation as far as--I 
mean, there are a lot of mental health issues that revolve 
around a lot of these veterans that end up--and everybody, as 
far as that goes. Is there any opportunity to try to give them 
some counseling, because from what I have heard, the counseling 
in the correctional facilities is pretty much nonexistent.
    Mr. Dougherty. Having worked in the correction field in the 
past, as well, I would concur with your view that there is not 
enough being done inside correctional institutions generally to 
address that. We attend joint meetings with people who provide 
services there, but generally, no, we do not provide any direct 
services inside institutions.
    Senator Tester. I mean, with those kind of numbers coming 
out, it would be great to try to build some bridges there, too.
    The only other question I have, and it is for--I have got a 
lot more questions, but it is for both of you. For instance, 
Ms. Marquez, you said $13.6 billion in ARRA money that came out 
for housing and community development. I assume some of that 
goes for veterans. Some of it goes for folks who aren't 
veterans. Do you guys measure how effective those dollars are, 
not necessarily those dollars, but any dollars you put on the 
ground? Do you measure the effectiveness as far as how many 
veterans end up getting served?
    Ms. Marquez. Actually, yes, we do. Those particular 
programs that serve veterans, we have over 7,000 clients. The 
assistance that is provided and the recordkeeping that is done 
is actually fairly significant, particularly in the special 
needs populations. We have quite a bit of information. On 
housing units----
    Senator Tester. OK. What qualifies as special needs?
    Ms. Marquez. Well, special needs would be someone who is 
homeless, at risk of being homeless, has a disability. So all 
of those programs. We have about 7,000 clients in our 
particular Special Needs programs, and when I mean clients, I 
mean organizations that receive money.
    Senator Tester. Right.
    Ms. Marquez. There is a fairly significant reporting 
process that keeps track of exactly what happens. And actually, 
an enriched technical assistance program for them.
    Senator Tester. Well, we may touch base with you to try to 
get some numbers on that, because I think that if we are 
getting a good bang for the buck on any of these programs, then 
I think we need to investigate it further.
    Just a closing comment. I just toured here a month or two 
ago a homeless facility, a facility that was taking care of 
homeless people in Billings, Montana. The VA contributed 65 
percent of the money. Volunteers of America contributed 35 
percent of the money. I was very, very impressed, and I think 
they can hold them for 2 years, get them back on their feet, 
get them some education if that is the direction they want to 
go, get them a job if that is the direction they want to go, 
and then try to mainstream them back in the general population.
    I cannot applaud those kind of efforts enough. There are a 
lot of these folks that if we don't supply them the kind of 
basic needs--if we don't help them meet them, it is going to 
cost them a lot as far as quality of life, potentially their 
life, period, where we can really help these folks. I just--in 
the short period of time that was open--I think it was open 
about a month when I got there--I was very impressed with the 
clientele that was there and how they were progressing.
    Thank you very much for your work. I very much appreciate 
it.
    Chairman Menendez. Thank you, Senator Tester.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair, and thank you all 
for the work you are doing.
    I wanted to particularly thank the Veterans Affairs, 
because we had a challenge with the VASH Program in Portland, 
Oregon, where the vouchers simply weren't getting distributed. 
There was a bureaucratic block in the pipeline, if you will, 
and earlier this year when we brought it to the attention of 
the Veterans Department, they jumped in, found what the problem 
was, fixed it, and put it back on track so those vouchers were 
really reaching veterans, and so I wanted to thank you for the 
team doing a great job in making the program work on the road.
    I want to try to understand this issue of homelessness 
among veterans as much as possible. I understand that 
homelessness tends to reach a peak about 7 years after veterans 
return, those who have served overseas. One might have 
initially thought that maybe homelessness would be higher first 
after returning, as people try to get their feet on the ground. 
But what drives the curve of homelessness as people return from 
the theater of war?
    Mr. Dougherty. I think there are two issues that are at 
play. One is that that has been the historical view of what has 
happened, has been about a 10-year period from the time you 
have discharged from military service. But that also predates 
the fact that we had early intervention and programs that were 
in existence.
    We are now much more proactively going out and reaching. 
But the real issue for most veterans who we see in homeless 
programs is a significant substance use disorder problem and 
mental illness problems, and many of those problems are 
something that accumulate over a period of time. And while I 
may have mental illness problems, I may have a substance abuse 
problem, for many, I can sort of cope and maintain for a while. 
I may be able to maintain some housing. I may be able to 
maintain. But my relationships start breaking apart. My friends 
and family stop associating with me, stop letting me stay with 
them, because while you go off to work, I sit and drink and 
abuse my opportunity to stay with you until finally you have 
had enough and you say, no, you have got to go.
    That is where many of the veterans that we have seen in the 
past have been. They have literally been homeless and out on 
the street or under the bridges or in an emergency shelter. 
What we are trying to do is change the focus of that, as we are 
in a lot of things in health care, into, instead of getting to 
illness care, we are trying to work on wellness. We are trying 
to stop that veteran early on so they don't become so disabled 
that they fall into what you and I would consider to be 
chronically homeless veteran. We want to try to make sure when 
they are having those first signs of mental health and 
substance abuse problems and employment-related problems, we 
are intervening with them at that period and not waiting until 
they get sick.
    Senator Merkley. Secretary Marquez, I saw you shaking your 
head. Is there anything you want to add to that, or shaking 
your head up and down.
    Ms. Marquez. I think the issues, the arc that people go 
through, if we are not careful about now removing judgment in 
our programs, right, judgment, for instance, if you are 
intoxicated, you can't come into a shelter, what ends up 
happening is that then that person can go outside, become 
belligerent, get arrested, and you drop down to another 
problem.
    If we had, for instance, something like a drop-in center, 
not that they should come into the shelter and be belligerent 
there, but if there were a corollary drop-in center where they 
could go to calm down, to sleep a bit, right, it would help, 
and that is because we would have removed judgment from our 
programs.
    The same is true as we go through with how do you serve 
people in permanent supportive housing. If we adopt a housing-
first model, truly adopt a housing-first model, then we will 
design buildings, common areas, spaces, and services to 
accommodate that more long-term and have a system later, that 
as folks stabilize, have another level of housing that doesn't 
have the deepest level of permanent supportive services, which 
are also the most expensive, and allows them to move from a 
certain level of deep services to another level of services, 
making room for someone else. We yet do not have the full 
measure of housing that takes someone from absolute crisis, 
like the individual that presents themselves at a shelter, to 
the level of sustainability of the individual until the point 
where they can actually be integrated back into the regular 
community without any stigma at all or being in any particular 
special needs types of housing. That is what we have to do.
    Senator Merkley. One other question, and certainly I will 
yield to the Chair if--is it appropriate to take another 
question here? As we study homelessness among veterans, do we 
find, if you will, for similar-aged folks who came from similar 
backgrounds who didn't go into the service, do we find a 
significantly different curve for those who didn't serve, those 
who served but didn't serve in a theater of war, didn't serve 
in battle, and those who ended up in Iraq and Afghanistan-type 
situations with the stress of battle? Do we see significantly 
different curves in terms of the level of substance abuse, the 
level of mental illness, the level of homelessness? Can we kind 
of see what the challenge of that--do we see distinctions from 
the veterans' experience to the experience of the regular 
population?
    Mr. Dougherty. I think that we are not sure we have a 
final, definitive answer on that. That is one of the things 
that these new Centers on Homelessness are really looking at. 
What we do know is that there are many common risk factors 
among all homeless people, those who have had military service 
and who have not. What we also know is those that had military 
service with long deployments, those who have been in combat 
zones, those are additional stress factors that are on people 
who generally are not on the civilian population who has not 
had military service.
    Among the OIF/OEF veterans, for example, that we have seen, 
is a significantly higher percentage of these veterans than any 
veterans we have seen before of having some affective disorder, 
perhaps combat PTSD. But these veterans have had multiple 
deployments in many cases and obviously have been in a very hot 
war situation, and so that is an additional stress.
    But we are still trying to come to the good answer as to 
whether or not we can really categorize whether there are so 
many risk factors in my youth and in my military service and in 
my postmilitary service to make a good correlation between 
those who had military service and those who have not.
    Senator Merkley. Thank you very much, both of you.
    Mr. Dougherty. Thank you.
    Chairman Menendez. Thank you, Senator.
    Thank you both for your testimony. We applaud your 
coordination. We are looking forward to greater integration so 
that we can provide a powerful set of programs that provide 
solutions, both on the housing and the supportive services side 
that, I think, universally we agree need to be integrated to 
make this successful. I know, having spoken to many of my 
colleagues about this, and you saw the turnout today about this 
issue, there is a great desire to be supportive of evidence-
based successful programs. Just having an array of programs 
doesn't cut it if we are not succeeding at the goal.
    So we will look forward to our continuing engagement. We 
are going to be hearing a second panel of both individuals as 
well as organizations who are involved with veterans and 
homelessness. We will share it with you and look forward to 
your responses. Thank you very much.
    Let me call up our second panel as our first panel leaves.
    The first witness on our second panel is Ms. Melanie 
Lilliston. She is the Director of Technical Assistance and 
Finance at the National Coalition for Homeless Veterans, a 
nonprofit organization which is a resource and technical 
assistance center for a national network of community-based 
service providers assisting hundreds of thousands of veterans 
each year.
    Our next witness is Mr. Jack Fanous. He is the Executive 
Director and founder of the G.I. Go Fund. The G.I. Go Fund 
specifically supports veterans of Operation Enduring Freedom 
and Operation Iraqi Freedom with respect to transition 
assistance, and we are certainly proud to have Jack here. The 
G.I. Go Fund is a New Jersey organization.
    Our third witness is Ms. Lila Guy, a veteran of Operation 
Iraqi Freedom. Ms. Guy served in Kirkuk, Iraq, from September 
2005 to September 2006. She is from the 101st Airborne Division 
at Fort Campbell, Kentucky. Ms. Guy has a compelling story to 
tell all of us, and on behalf of our colleagues here in the 
Senate, we thank you for your service to our country.
    Our final witness is Mr. William Wise of Winslow, New 
Jersey. He is a Vietnam War veteran. Mr. Wise himself was 
homeless for a time after his return, and once again, Mr. Wise, 
thank you for your service to our country.
    We welcome you all. We look forward to your testimony. And 
again, we would ask you to summarize that testimony in around 5 
minutes. Your full statements will be included in the record.
    And with that, Ms. Lilliston, would you start?

     STATEMENT OF MELANIE LILLISTON, DIRECTOR OF TECHNICAL 
    ASSISTANCE AND FINANCE, NATIONAL COALITION FOR HOMELESS 
                            VETERANS

    Ms. Lilliston. Good morning. The National Coalition for 
Homeless Veterans is honored to appear before this Committee 
today to comment on ending veterans homelessness.
    For 20 years, NCHV has worked diligently to serve as the 
Nation's primary liaison between the community and faith-based 
organizations that help homeless veterans, the Congress, and 
the Federal agencies that are invested in this campaign. The 
efforts have been commendable and we are grateful that we have 
such dedicated and passionate leadership within the Department 
of Veterans Affairs, the Department of Labor, and the 
Department of Housing and Urban Development. We have made 
significant progress in the efforts to end veterans 
homelessness. However, our work is not done until the last 
veteran is off the street.
    Just last week at a summit hosted by the VA, Secretary Eric 
Shinseki stated, this is not a summit on homeless veterans. It 
is a summit to end homelessness among veterans. That is our 
purpose. President Obama and I are personally committed to 
ending homelessness among veterans within the next 5 years.
    To demonstrate his commitment, Secretary Shinseki has 
created a 5-year plan that would expand the VA's partnerships 
and collaborations between the Federal agencies and community-
based partners. Four of the six strategic pillars of the plan 
work on--have been built on the work of the past two decades, 
outreach, treatment, employment and benefits, and community 
partnerships. Two represent new critical focus, prevention and 
housing and supportive services for low-income veterans.
    NCHV acknowledges the leadership role of the Subcommittee 
and that of the full Committee in this noble effort. There are 
three key bills that lay the foundation on which we as a Nation 
can build a successful, comprehensive campaign to end and 
prevent homelessness among veterans and fulfill the Secretary's 
5-year plan.
    The Zero Tolerance for Veterans Homeless Act of 2009 
provides authorization for up to $50 million annually to 
provide supportive services for low-income veterans to reduce 
the risk of becoming homeless. It will modernize the extremely 
important and successful VA Grant and Per Diem Program and 
allow for the utilization of innovative project funding 
strategies. It calls for the Secretary of Veterans Affairs to 
study the method of reimbursing Grant and Per Diem Programs for 
their program expenses and reporting recommendations for 
revising the payment system. It will increase the annual Grant 
and Per Diem authorization to $200 million annually beginning 
in fiscal year 2010, and it will establish the Special 
Assistant for Veterans Affairs within HUD to ensure veterans 
have access to housing and homeless assistance programs funded 
by the Department.
    The Homes for Heroes Act of 2009 will allow low- and 
extremely low-income veterans to access housing and the vital 
services they need in order to be successful citizens. The Act 
would provide $200 million annually for the development of 
supportive housing for veterans who need case management and 
wrap-around services in order to be successfully housed. It 
would fund 20,000 rental vouchers for extremely low-income 
veterans, and it would create the position of Veteran Liaison 
within HUD to ensure veteran inclusion in all of their 
programs.
    More and more families are requesting services and 
affordable housing, and providing them this support would 
reduce the likelihood that many veteran families in crisis will 
continue on this downward spiral into homelessness. The 
Homeless Women Veterans and Homeless Veterans with Children Act 
of 2009--for the first time in American history, women comprise 
more than 11 percent of the forces being deployed to serve in 
the Iraq and Afghanistan wars, including more than 30,000 
single women with dependent children. The VA anticipates women 
will account for more than 50 percent of the Nation's veterans 
within the next 10 years. Currently, more than 5 percent of 
veterans requesting assistance from the VA and community-based 
homeless veterans service providers are women, and more than 
half of these women are between the ages of 20 and 29, with 10 
percent having dependent children. This bill would authorize up 
to $10 million in grants to community and faith-based 
organizations to provide critical, specialized supports for 
these deserving families as they work their way out of 
homelessness.
    In closing, on this day before Veterans Day, I want to 
thank you for your support helping the men and women who have 
served this country in the greatest hour of need. The successes 
we have seen in decreasing the number of homeless veterans over 
the last 5 years would not have happened without your 
leadership and support. These three bills are vital for the 
Secretary's 5-year plan to move forward. From the increase in 
the number of HUD-VASH vouchers and the ability to provide 
supportive services for low-income and women veterans, to the 
improvement and expansions of the Grant and Per Diem Program, 
these bills provide real opportunities to move the plan into 
action and fulfill the historic mission to end homelessness 
among veterans and former Guardians in 5 years.
    Once again, on behalf of the veterans we serve, thank you 
for your support. I can think of no better way to say thank you 
to all of those who served this Nation than continuing to 
support those veterans who need our help the most.
    Chairman Menendez. Thank you very much.
    Mr. Berg, let me apologize. In my original set of 
introductions here, there was an omit. We welcome you to the 
hearing. Steven Berg is the Vice President for Programs and 
Policy at the National Alliance To End Homelessness, a 
nonpartisan, nonprofit organization that was founded back in 
1983 by a group of leaders deeply disturbed by the appearance 
of thousands of Americans living on the streets of our Nation. 
And while I know your agenda is broad in terms of all 
homelessness, we certainly welcome you to today's hearing and I 
recognize you at this time.

 STATEMENT OF STEVEN R. BERG, VICE PRESIDENT FOR PROGRAMS AND 
         POLICY, NATIONAL ALLIANCE TO END HOMELESSNESS

    Mr. Berg. Well, Senator Menendez, thank you again for 
holding this hearing and inviting us to the hearing. I think 
your statement about wanting to support things that work is 
really what I would like to talk about for a few minutes here 
today.
    As many people on this Committee are aware, and largely 
because of the work of programs under the jurisdiction of this 
Committee, this country--the leading communities in this 
country have really changed the way homelessness is addressed. 
The cities, the States that are doing the best work on this 
issue have really changed from programs that merely manage the 
problem of homelessness and take care of homeless people to 
programs that really seek to solve the problem of homelessness.
    I know you are familiar with the use of permanent 
supportive housing in New Jersey as a real leader for the rest 
of the country. Initiatives like Rapid Re-Housing, like more 
intensive prevention kinds of services, coordinating across 
systems, these initiatives have had real impacts in some of the 
leading communities. The number of homeless people has dropped 
substantially up until the recession, and even in the face of 
the recession, it managed to stave off the increases that we 
have come to expect as the unemployment rate goes up.
    We have an opportunity now to use what we have learned to 
get these same results for veterans. For 20 years, we have been 
addressing the problem of homeless veterans, decrying the lack 
of results, but somehow not able to ever get the results that 
we have wanted. The learning that we have had in recent years, 
the political support for doing more about homeless veterans, 
those things combine to give us an opportunity that I think is 
illustrated by the new VA Secretary's announcement of a 5-year 
plan to end homelessness for veterans.
    I think what it is going to take--what we have learned from 
what we have seen with the homelessness system more generally 
is that there are certain things that it is going to take. It 
is going to take leadership. It is going to take leadership at 
the national level, and, of course, the Secretary has put down 
a hugely important marker for that. It is also going to take 
leadership at the local level.
    Too often--and this, of course, varies by location and 
there are many places where the local VA representatives are 
very closely tied in with what the rest of the community is 
doing around homelessness--but there are other places where the 
VA's homeless programs or the VA itself is separate from what 
happens in the rest of the community around homelessness. There 
is not a lot of interaction there.
    What needs to happen is the VA needs to take leadership at 
the local level, and very specifically, as we put it, there has 
got to be somebody whose job it is, if a veteran is homeless or 
about to become homeless, to help that veteran get housing. And 
the VA are the ones to do it.
    That has started now with the HUD Voucher Program, as the 
VA has hired case managers, part of whose job is to find 
landlords who are willing to take those vouchers and rent to 
homeless veterans. The advent of the Homeless Prevention and 
Rapid Re-Housing Program in the stimulus, that is a HUD 
program, but it makes more resources available, and we are 
hearing the VA getting more active about finding out who has 
got those resources in the community, making sure veterans have 
access to those. The kind of prevention and Rapid Re-Housing 
initiatives that are in Senator Reed's bill, the Zero Tolerance 
bill, would take that a step further, as Pete Dougherty was 
saying. This is an important thing that has to happen. There 
needs to be a broader array of programs for homeless veterans.
    The VA has programs such as the Per Diem Program that are 
focused on veterans for whom a 2-year transitional housing 
stint is an appropriate response, where sobriety is an 
achievable goal. But there also need to be programs like 
permanent supportive housing that find people who have more 
severe disabilities and severe problems, for whom sobriety is 
just not going to be able to be the first thing on the agenda. 
And at the same time, on the other end, there need to be 
programs like Rapid Re-Housing for people who don't need a 2-
year program. They are having an emergency crisis. They need an 
emergency crisis response. These are things that are starting 
to really have an impact in the regular homeless system and it 
needs to happen in the VA, too.
    We know that for many years, we have not dealt with this 
issue the way it should be dealt with. There is a sense in 
which, as a country, we made some mistakes with veterans of an 
earlier era, of the Vietnam era and the era right after that, 
and the result was thousands of veterans homeless for a long 
period of time. We hope not to make that same mistake now, and 
at the same time maybe rectify some of the mistakes we made 
earlier. I think the opportunity exists to do that, and that is 
why I am so enthused about what this Committee is doing. Thank 
you.
    Senator Merkley. Thank you very much.
    Mr. Fanous.

 STATEMENT OF JACK S. FANOUS, EXECUTIVE DIRECTOR AND FOUNDER, 
                          G.I. GO FUND

    Mr. Fanous. Good morning, Chairman Menendez. I would like 
to thank you for this opportunity to testify on the 
difficulties our Nation's homeless veterans face and the steps 
our organization is taking to answer the call to end all 
homelessness among veterans within 5 years.
    I am the Executive Director and founder of the G.I. Go 
Fund, a grassroots 501(c)(3) nonprofit organization with a 
mission to assist our Nation's heroes along the difficult path 
of transition. The G.I. Go Fund was founded in 2006 following 
the death of one of my closest childhood friends, Army 
Lieutenant Seth Devorin, from wounds he suffered while 
attempting to dismantle an IED in Iraq.
    The organization began as a small community group which 
aimed to preserve the memory of my friend by providing veterans 
with days of rest and relaxation. However, as we began to 
understand these men and get to know them, we began to 
understand that their problems didn't end the minute they 
stepped back foot on American soil, that the problems actually 
just began.
    Our veterans who have just endured and survived the 
unimaginable are now expected to execute a smooth transition 
back to civilian life. They are expected to establish 
relationships with family and friends. They are expected to 
find either long-term secure employment based on their work 
experience in the military or expected to become students 
utilizing the Post-9/11 G.I. Bill, all this while still tending 
to their mental and physical wounds by fully addressing 
utilizing their VA benefits.
    It has been my experience that a fragmented transition 
which results from one of these steps being missed or 
mishandled leaves our veterans to face a myriad of problems 
that can range from fractured family ties, unemployment, 
depression, as well as many others. This is all in addition to 
the veteran's experienced physical or mental wounds. The issues 
can fester and manifest to become chronically debilitating 
illness.
    Ultimately, a fragmented transition is the primary cause of 
homelessness among our Nation's veterans and we must formulate 
a two-pronged approach that first works to avoid future 
homelessness among new veterans, while simultaneously ending 
the current disaster. This two-pronged approach has been 
implemented by Mayor Booker of Newark, New Jersey, who has 
partnered with our organization to create the first-ever 
nonprofit run Municipal Office of Veterans Affairs, which aims 
to help veterans find employment and get off the streets when 
they are actually homeless.
    When a soldier returns to the United States from Iraq or 
Afghanistan, he or she is immediately inundated with the 
problems many Americans face today, which include unemployment, 
an empty refrigerator, shut-off notices, or an eviction or 
foreclosure notice. While our organization has assisted 
thousands of American military families with these problems as 
they arise by hosting job fairs to address the unemployment, 
but also providing direct financial assistance to help put food 
on the table and keep a roof over their heads, it just isn't 
enough.
    The root of the financial difficulties usually stems from 
unemployment. Like any one of us here today, a veteran cannot 
pay for groceries if they are unemployed. A veteran cannot pay 
for utilities if they are unemployed. A veteran cannot pay for 
a mortgage if they are unemployed. However, unlike the rest of 
us sitting here today, these men and women have been defending 
our Nation's freedom against the threat of terrorism, causing 
them to miss years of their lives. Our Nation's veterans 
deserve our patience, assistance, and understanding that it 
will take some time to put these lives back on track.
    In addition, the Department of Labor's Office of Federal 
Contract Compliance, which oversees the hiring practices of 
Federal contractors as it pertains to women, minorities, 
veterans, and people with disabilities, tracks numbers on the 
number of women and minorities that are hired by Federal 
contractors. However, it does not track the number of veterans 
which are hired by Federal contractors. Until our Federal 
contractors and all of our employers in the country take 
affirmative action to hire our veterans now, we will not be 
able to end the flow of veterans onto the streets.
    On any given night in America, one-third of all homeless 
people are men and women who proudly served our Nation. They 
live in boxes and under bridges. They are our forgotten heroes. 
To end this national disaster, a vigorous series of 
partnerships between all branches of Government and at all 
levels of Government must be forged with community groups and 
faith-based organizations. However, these partnerships must 
result in veterans actually getting off the streets, not the 
same outreach attempts which have failed in the past, like the 
Veterans Homeless Standdown, which we host every year in the 
city of Newark, which amounts to nothing more than just a nice 
day for veterans. They come in, they get a hot meal, they get 
some clothes, but they go right back out on the streets. It 
doesn't accomplish much.
    This more can only come in the form of housing--more 
housing, more beds, more transitional beds, more permanent 
housing, as we spoke about with the HUD-VASH, housing projects 
like the one we are working on in the city of Newark, which 
will pursue to rehabilitate a 33,000-square-foot building into 
a transitional housing facility that will house 100 homeless 
veterans. In a State that has 9,000 homeless veterans on any 
given night in a State that only has less than 200 permanent 
transitional housing facilities, we need more.
    And in conclusion, I would like to thank you, Senator 
Menendez, and all the Members of the Committee, for providing 
me the time to speak about this important issue on ending 
homeless within 5 years. While the task that lies before us is 
great and the clock has already begun ticking, I leave here 
today deeply encouraged by the attention this Committee has 
shined on the issue. I am encouraged that the Chairman of this 
Committee, Chairman Menendez, has in his Congressional office a 
liaison that fights for veterans issues in the State of New 
Jersey with a passion that is unmatched. And I am most 
encouraged that President Obama and Secretary Shinseki have 
made ending homelessness among veterans a top priority of the 
new Administration. I am encouraged, but I am keenly aware of 
the enormity of the task at hand, and I am ready to dig in and 
manifest the direction provided by the President and Congress. 
Thank you.
    Chairman Menendez. Thank you very much.
    Ms. Guy.

           STATEMENT OF LILA M. GUY, IRAQ WAR VETERAN

    Ms. Guy. Hi. I just want to thank you for allowing me to 
come here and share my story.
    As you have already said, I spent a year in Iraq, from 2005 
to 2006, and during that time, I was in Kirkuk, Iraq. But I had 
four children at home and a husband. When I came back home, 
about a month after we got home, they informed us that we will 
be redeploying in less than a year after we had came back. My 
husband was not happy. He was not in the military, but he 
decided that it just was not something that he wanted to do, 
and so he just left.
    And so at the time, I had three children. Me and my 
children were at Fort Campbell and we were doing field training 
and things like that. I didn't have anybody to watch the kids 
for me or whatever while I went to the field for 30 days, and I 
had to ask my mom to come and stay with me so I could do 2 
weeks of training. And after all of that, I couldn't do it 
anymore. I was having issues just trying to readjust to being 
back home and taking care of kids and all that kind of stuff.
    So I ended up getting out of the military on a hardship 
discharge. So when I got out, I had nothing. Because it was 
such an abrupt discharge, I didn't have anything, nowhere to 
go, and I drove home. All I had was my car and my kids. So I 
drove home to my parents' house and I stayed there for a while.
    I ended up having another baby and my father said, you 
know, you can't--we don't have enough room, so you are going to 
have to find something. But at that time, I still had not found 
a job. I had four kids now in one room in a two-bedroom house 
with my parents, and so I sent an e-mail to Congressman Sestak 
and I informed him of my situation. I was in school. I was a 
full-time student. But I just didn't have the money. I had no 
place to go. And I asked him, could he help me.
    They sent me to the VA, and they had just started a pilot 
program for the HUD-VASH--I mean, not a pilot, but it just 
started, and I was, like, one of nine of the people that had 
just started, you know, going to be first on the program. And 
it took about a year before I actually got into a house. During 
that time, it was really stressful because I am watching as all 
of the people who are in charge--it was only one person. They 
finally brought in another person, and by the time he came, 
they had about 150 applicants and they were supposed to be, you 
know, having meetings with those, coming to our house, and all 
of that kind of stuff, but they couldn't do it because they 
didn't have enough people.
    But anyway, I got a house through the HUD-VASH Program. It 
is a four-bedroom house and it is a beautiful--it is a nice 
house, you know, just a transition, but I just thank the HUD-
VASH Program for being there for me when I needed them, because 
I really didn't have any other choice or whatever.
    With the HUD-VASH Program, I really believe in it, because 
my situation could have been a lot worse. And I see a lot of 
people that are--when we go to the meetings, there are a lot of 
other people that are in the HUD-VASH Program that are 
literally living on the street, and a lot of them have mental 
illnesses. I was listening to his statement and it was true to 
me, because I see so many--not just veterans, but soldiers, as 
soon as they come back, with so many mental issues.
    And like he said, the transition is hard. They teach you to 
go and to train and to fight and do all of those things, but 
they don't teach you how to live a normal life when you come 
back. They don't teach you how to take care of your kids or pay 
all of your bills or whatever. A lot of that stuff is all 
clumped in together. But once you are out in the real world, 
those things are not there for you. There is nobody to say, 
well, this is what you need to do, this is the next step, 
whatever.
    And a lot of those people are lost. There are a lot of 
veteran programs, but most veterans don't know what options are 
out there for them. So it just so happened that I was able to 
reach out to somebody that could help me, but a lot of those 
people don't know. They don't have those resources.
    So I just thank the HUD-VASH Program for all that they have 
done for me, because it has given me an opportunity to move on 
with my life. I am still a full-time student and I am doing the 
Vocational Rehabilitation Program, so all of those programs are 
all different. But every time that you have to reach out to 
somebody, you are reaching out here, reaching out there, it is 
frustrating, and a lot of those people don't have the patience 
to deal with those kind of things.
    So if there was some way that all of those things could be 
pushed together--not necessarily pushed together, but giving 
them an opportunity to be able to say, well, these are the 
options that you have, these are the things that are out there 
for you, it would help a lot of these soldiers out a lot, 
because they don't have anybody as their liaison to say, look, 
you can do this, that, and the other.
    So I just thank you for allowing me to be here. Thank you.
    Chairman Menendez. Thank you very much for sharing your 
story, and again, thank you for your service. We wish you well 
in school, as well.
    Ms. Guy. Thank you.
    Chairman Menendez. Mr. Wise.

         STATEMENT OF WILLIAM WISE, VIETNAM WAR VETERAN

    Mr. Wise. Good morning and thank you for having me. I am 
pretty much here to endorse the long-term residential programs, 
like the one I am in in Winslow. Having been into short-term 
programs, in and out of psych wards, et cetera, in programs, 
and then thrown back out in the private sector, the VA--their 
long-term residential program has provided me with the time to 
really address--assess and address the issues of a veteran and 
to use a military skill, a military training and experience, 
and turn that into a new skill set to learn how to transition 
out.
    It is a very good program, and I think the time that you 
are there is more important. Short-term, it is not going to 
work, the 120-day program, at least not for me. Had I known 
about the VA earlier, it probably would have been like fourth 
down and 99 before I even tried to call the 1-800 number. You 
know what I am saying. I come from a generation where it is 
nothing but a scratch. I can handle it. And so it was a long 
time coming before I got to the point where I sought someone to 
get a new play to run, and I still probably would have run my 
own play.
    I don't know what else to say about that except I really, 
really enjoy that program. It saved my life. I have created a 
balance where I can see something. Instead of trying to 
assimilate, I can take my own self and go on, and that is all I 
have. Thank you.
    Chairman Menendez. Mr. Wise, which program were you talking 
about?
    Mr. Wise. Veterans Haven. Veterans Haven in Winslow. It is 
a 2-year vocational and residential--I mean, vocational and 
transitional arrangement, 2 years, and then after completion, 
with an income, with a certain income, you can go to get 
housing assistance as long as you stay in the State of New 
Jersey, which I leave in March, and that is why I plan to stay 
in Jersey.
    Chairman Menendez. Great. Thank you very much, again, for 
your testimony and your service.
    Thank you all for your testimony. We will start a series of 
5-minute rounds, and I may take more than 5 minutes since there 
is no one else looking to ask questions.
    Let me start off with a little bit of what I heard here. 
Mr. Berg, you said the VA needs to take leadership at the local 
level, as I heard you. Can you expound? What exactly do you 
mean by that, that they need to take leadership at the local 
level?
    Mr. Berg. I think there are two things I mean by that. One 
is within a community, in every community in this country, 
there are people working on the issue of homelessness. There 
are HUD-funded programs. There are HHS-funded programs. There 
are VA programs. A lot of times, those programs don't 
necessarily work together around veterans, around the simple 
things of, you know, if you are going to really be serious 
about reducing and ending veterans homelessness in the 
community, you have to find the veterans who are homeless, find 
the veterans who are about to become homeless, make sure 
somebody is doing that, and then find the housing resources 
that are going to be available and the other kinds of resources 
that are going to be needed for those veterans.
    So it is a matter of reaching out to different people in 
the community, to leaders in the community, to federally funded 
programs, to private programs, bringing them together around 
this task of, in this community, we are going to identify 
veterans who are homeless and we are going to get them into 
housing and we are going to chip away at the numbers until we 
reduce the number to zero.
    So it is that kind of leadership, and it is also just the 
leadership of making sure that help with housing is available 
to veterans who turn to the VA. I mean, right now--and this is 
changing because of HUD-VASH--but in the past, the VA just 
hasn't had housing resources other than the 2-year transitional 
programs, which are limited in number and really just not 
really enough of that to really cover the scope at all. So 
veterans would come in--homeless veterans would come in, or 
people about to losing their housing would come in and there 
was no help to give them. And so it is making sure that an 
array of housing resources are available and there are people 
at the VA who can work with landlords and help resolve housing 
problems.
    Chairman Menendez. Mr. Fanous, you talked about the 
fragmentation. So if you had a magic wand and could make what 
you think is the best coordinated effort to take place, what 
would it be?
    Mr. Fanous. Well, honestly, Senator, I believe that the 
most important thing would be to have all the stakeholders who 
are providing care for veterans, they should be localized and 
put into one location. When a veteran has to travel from the VA 
in one part of the State and has to go to the Social Security 
Administration in another part of the State, and then he has to 
go to the Salvation Army or the G.I. Go Fund and he has got to 
drive all over the State, many times, they don't have enough 
money to put gas in their car.
    It just gets that simple, that the facilities all have to 
be together in one centralized location, which is something 
that we are hoping to work on in the city of Newark, was create 
a mall of services, you know, just a one-stop--a legitimate 
one-stop mall of services, where one office would be Social 
Security Administration, one office would be the VA, one office 
would be various nonprofits that can support veterans. If a 
veteran can just walk into one spot--which is kind of what the 
VA's War-Related Illness Injury Center has at the VA, where 
they try to handle all medical issues at one point, if you can 
try to handle all issues completely, veterans' issues from the 
Department of Labor, every single one of those departments, it 
is the best chance you are going to have to helping veterans.
    Otherwise, it is going to stay fragmented, because if a 
veteran goes to the VA and he talks to one person, he might not 
know that he has to go to the Social Security Administration. 
He might not be getting the right information, which is what 
happens every single day. I see it every single day in my 
office. It sounds like it is easily fixed, but I haven't found 
a way to do so.
    It is just every single veteran that I see in my office 
that comes in with a problem, it is because they didn't handle 
a certain part of their transition. Something was missing, 
whether it be the employment, whether it be the VA, whether it 
be the education, whether it be something, they missed 
something. And unless everybody is housed together and 
providing services for them together, I don't see how it is 
going to change.
    Chairman Menendez. So a holistic, one-stop----
    Mr. Fanous. Right.
    Chairman Menendez. ----service effort is what you are 
talking about.
    Mr. Fanous. Right. Like our office serves as a one-stop, 
where we have information from every office. However, I don't 
think that is as effective as it would be if every agency was 
housed in one building for veterans.
    Chairman Menendez. Ms. Guy, you gave us a little bit of an 
insight in your testimony. Women are now 15 percent of the 
Armed Services of the United States. I am wondering, from your 
own experience, and maybe from fellow soldiers who are women, 
what do you think are the biggest obstacles faced by returning 
female veterans that are not addressed by the programs that 
have, obviously because of our history, traditionally been 
designed for men? What do you think, if you had a magic wand 
and could tailor something that is particularly responsive to 
female veterans returning, particularly in this whole field of 
homelessness and related services, what would it be?
    I got a little sense from your statement that you are a 
little frustrated with trying to figure out where to get help 
and how to coordinate it, and you are lucky to have your 
Congressman be responsible and hook you up, so to speak, but--
--
    Ms. Guy. Right. I just want to say that he really hit the 
nail on the head as far as the issue, and it is not just, you 
know, female veterans, but all veterans. I go to Iraq War 
Veterans group meeting for soldiers that have post-traumatic 
stress disorder and TBI, things like that, and our biggest 
issues--most of them are male. I think every now and then I 
might get another female. But most of the time, it is just me. 
When I listen to everybody, their biggest complaint is the fact 
that they don't know where they are supposed to go and they 
don't know the things that are out there for them. And one of 
the big things that we discuss is, like if I know something 
that they don't know, we talk about it and they will write 
things down. We share information, and that is how we find out 
things.
    But from a female perspective, I think my biggest issue is, 
just like every other issue that the other veterans have, mine 
is compounded with becoming a female again, you know, learning 
how to talk to people, not like--you know, most people that see 
me now would never believe that I was a veteran, that I was a 
soldier. They don't understand how I did it. But I had to 
change my whole train of--my whole way of thinking being I was 
a soldier. I wasn't a female. I was a soldier. And so now, I am 
a female again and it is a hard transition. I know the VA is 
not going to necessarily help me with that, but being--the 
Philadelphia VA is really good with their program that they 
have there for female veterans. They have a women's center 
where it is in the hospital, and if you have any issues, your 
primary care doctor, everybody is right in there.
    But as far as, like, going to physical therapy and the 
Social Security Administration building and all that, I mean, 
they are all over the place, and if I didn't have a vehicle, 
like most of these veterans don't have, you are not going to 
fight. After a while, they are just going to get frustrated, 
because on top of trying to get all of these things done with 
the VA, they are still trying to find a job, still trying to 
find somewhere to live, still dealing with their mental issues, 
and they get tired.
    And guess what? When they get tired, they say, you know 
what? I am just going to have a drink. I am just going to sit 
down in my basement or somebody's basement or wherever and I am 
just going to drink myself to death, or whatever it is that 
they--you know, it is a hard thing, being a veteran, because 
those issues never go away. A lot of them still have that 
battle mind, and you don't--they don't know how to turn it off. 
And until they learn how to turn it off and live a normal life, 
it is going to be the same way that it is now.
    Chairman Menendez. Mr. Wise, I saw you shaking your head 
there a couple of times--in agreement, it seemed like. You 
talked about the longer-term program that has worked for you. 
What were the elements of that that worked for you that didn't 
work with other programs that you had been involved with?
    Mr. Wise. Well, I think the staff there, you know, they had 
a staff that was really helpful in getting veterans back on 
their feet and they were really attuned to the different kinds 
of veterans that would come through, whereas on the mental 
level or a psychological level, they say someone would fail--
would not try because he was afraid to fail, something on that 
note. They would notice that and encourage you to try a little 
more or something like that. With that being asked all the 
time, one can incorporate that and start to ask themselves 
that, you know, like be self-aware of what I wasn't doing, to 
look at a situation as a problem or an obstacle, where before 
it wasn't, you know, much to look at, but it was still there. 
You know, you can't address what you don't see.
    So there, with the counselors and the nurse, I got to see 
some certain things that I couldn't see before, you know, like, 
where did that come from? And it was there long before. And you 
have something to look forward to, like not just completion. At 
first, you are so--I am so happy and secure to be there, like 
in the first couple of months, you know. Now I am getting close 
to the end. I am ready to transition, not like I was kicked out 
in 120 days from another place. It is time to go. I am really 
ready to go now and it was a process. It is a heartfelt 
process, and not just forced because my days are up. That is 
the best thing about it, the self-awareness and the ability to 
help yourself and not afraid to ask for help, which was really 
hard and still is kind of hard for me to do.
    Chairman Menendez. Thank you. That is very insightful.
    All right, Ms. Lilliston, last word. I heard your 
testimony. I understand what you want us to do legislatively. 
But if you had, again, a magic wand and you singularly said, 
Senator, one, two, three, what would it be?
    Ms. Lilliston. Well, I think we have all heard some great 
examples of the successes that have been going on the past 
years, and I would say, you know, I urge everyone to continue 
the great work that we have done, continue putting in the 
resources where we need them the most, in prevention and the 
strategies for housing and the supportive services that go with 
them. Those are the things that veterans need in order to be 
successful and continue in order to either prevent homelessness 
or get them out of the part that they need the most.
    You know, I don't--the magic wand, I think, is great, but I 
think everyone is going to have a success story that is unique 
to themselves. And allowing organizations and allowing 
communities to be able to provide those services that are 
unique to each veteran, but still provide those tools and 
resources to get them out of homeless or prevent them from 
being homeless are the key things that we should take and we 
should think about moving forward.
    Chairman Menendez. All right. Well, I appreciate that Mr. 
Dougherty stayed and listened to the series of comments here. I 
heard a lot of commonality, and one thread of that is certainly 
some type of holistic, coordinated approach so that a veteran 
doesn't get bounced from location to location to location to 
deal with all of their challenges is part of our challenge on 
homelessness, as well as their own reintegration to our society 
after they serve their country. That is one clear take-away for 
me.
    Obviously, the HUD-VASH Program seems like it is the type 
of program that we want to expand on and that is providing a 
real sense of opportunity and a way in which when we say, 
welcome home, we mean it at the end of the day.
    Well, thank you all for your testimony. The record is going 
to remain open for 2 days so that other Members who had 
conflicts or others who have additional questions--I am sorry, 
it is going to be open for 1 week because we are going to 
obviously have a lot of questions here. It will be open for 1 
week. If you do receive questions from Members of the 
Committee, we would ask you to answer them as expeditiously as 
possible. It will help us fill the record and work on some of 
these legislative solutions.
    We thank you all for your testimony. Ms. Guy and Mr. Wise, 
thank you for your service to this country.
    With that, this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
           PREPARED STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD
    I want to begin by thanking Subcommittee Chairman Menendez for 
holding this important hearing.
    Tomorrow is Veterans Day, a day to mark the service and sacrifice 
of our soldiers, sailors, airmen, Marines, and Coast Guardsmen.
    But more than 131,000 men and women who wore the uniform of the 
United States of America--nearly one in every 172 vets--will be 
homeless tonight. And during the course of the year, more than a 
quarter million veterans experience homelessness. One in four homeless 
Americans is a vet.
    That is unacceptable.
    The Obama administration has recently committed to ending 
homelessness among veterans within 5 years, and I commend that 
commitment. According to Secretary Shinseki and our witnesses today, 
the Administration's holistic approach to the problem encompasses the 
various services a vet may need to escape or avoid homelessness: 
education, jobs, health care, housing, and other support services. I 
look forward to learning more about the Administration's proposal, and 
I offer them my support and assistance.
    Unfortunately, the struggle to access benefits is a common one for 
the veterans who have earned them. Too often, Federal agency silos and 
fragmented programs stand between vets and the support services they 
need. That has to change.
    I am encouraged by the partnerships being forged between the 
Department of Housing and Urban Development and the Veterans' 
Administration that have helped connect vets with housing vouchers and 
support services through the HUD-VASH program. And I intend to continue 
working with HUD, the VA, the Interagency Council on Homelessness, and 
other Federal agencies to encourage a coordinated approach and 
eliminate structural barriers in our system.
    In addition, I remain concerned with the situation of female 
veterans--women being increasingly represented in our armed forces--and 
veterans with children, who have special needs when it comes to housing 
and health care. When a loved one goes off to serve in the armed 
forces, their family shares the burden. Multiple deployments put 
tremendous financial and emotional strains on the spouses and children 
of our troops. That's why I've fought to expand benefits for military 
families under the provisions of the Family and Medical Leave Act. And 
that's why we must take special steps to ensure that those who have 
borne such a burden in defense of our country do not face the threat of 
homelessness.
    We are all glad that thousands of veterans of Operation Iraqi 
Freedom and Operation Enduring Freedom are now, and will continue to 
be, returning home. But for many, home is a very different place than 
the one they left. With an economy in turmoil and high unemployment, 
the customary challenges many face when reintegrating into society are 
only magnified.
    But we can build upon the lessons of the past two decades of 
antihomelessness research and practice to offer these veterans better 
solutions and support than ever before.
    In her written testimony, Sergeant Lila Guy--herself an Iraq war 
veteran who found help through the HUD-VASH program--states that 
``veterans have served their country well and I believe the least they 
can get for their service is help finding a place to live.''
    I agree. I look forward to hearing from our witnesses.
                                 ______
                                 

                 PREPARED STATEMENT OF MERCEDES MARQUEZ
Assistant Secretary for Community Planning and Development, Department 
                    of Housing and Urban Development
                           November 10, 2009
Introduction
    Chairman Menendez, Ranking Member Vitter, Members of the 
Subcommittee, I am pleased to be here today to represent the Department 
of Housing and Urban Development. My name is Mercedes Marquez, the 
Assistant Secretary for Community Planning and Development. My office 
seeks to develop viable communities by promoting integrated approaches 
that provide decent housing, a suitable living environment, and expand 
economic opportunities for low and moderate income persons. I oversee, 
among other things, the Department's efforts to confront the housing 
and service needs of homeless persons. This responsibility includes 
confronting the needs of our country's homeless veterans and their 
families. As President Obama has said, ``Too many who once wore our 
Nation's uniform now sleep in our Nation's streets.'' Last week 
Secretary Shinseki announced the Department of Veterans Affairs plans 
for ending homelessness among veterans. HUD fully supports these 
efforts. HUD provides housing and needed supports to homeless veterans 
through the Department's targeted homeless assistance programs, as well 
as through mainstream HUD resources.
    The Department administers a variety of programs that can serve 
veterans. These include the Housing Choice Voucher Program, Public 
Housing, HOME Investment Partnerships, and the Community Development 
Block Grant (CDBG) program. These programs, by statute, provide great 
flexibility so that communities can use these Federal resources to meet 
their local needs, including the needs of their veterans. In addition 
to these programs, Congress has authorized a variety of targeted 
programs for special needs populations, including for persons who are 
homeless.
    Unfortunately, veterans are well represented in the homeless 
population. HUD is committed to serving homeless veterans and 
recognizes that Congress charges HUD to serve all homeless groups. 
HUD's homeless assistance programs serve single individuals as well as 
families with children. Our programs serve persons who are disabled, 
including those who are impaired by substance abuse, severe mental 
illness and physical disabilities as well as persons who are not 
disabled. HUD provides an array of housing and supportive services to 
all homeless groups, including homeless veterans.
Targeted HUD Homeless Assistance Grants
    In February 2009, HUD competitively awarded approximately $1.4 
billion in targeted homeless assistance grants. A record 6,336 projects 
received awards. It is important to note that veterans are eligible for 
all of our homeless assistance programs and HUD emphasizes the 
importance of serving veterans in its grant application. Communities 
may submit veteran-specific projects or projects that support a general 
homeless population that includes veterans. In this competition, HUD 
awarded 136 projects that specifically target veterans. There were 
1,079 additional projects awarded that will serve a broader population, 
which include veterans.
    To underscore our continued commitment to serve homeless veterans, 
we have highlighted veterans in our annual planning and application 
process. In the annual grant application we encourage organizations 
that represent homeless veterans to be at the planning table. Because 
of HUD's emphasis, communities have active homeless veteran 
representation. We also require that communities identify the number of 
homeless persons who are veterans so that each community can more 
effectively address their needs.
HUD-VASH
    The Congress provided $75 million in both 2008 and 2009 for the 
HUD-Veterans Affairs Supportive Housing Program, called HUD-VASH. The 
HUD-VASH program combines HUD Housing Choice Voucher rental assistance 
(administered through HUD's Office of Public and Indian Housing) for 
homeless veterans with case management and clinical services provided 
by the Department of Veterans Affairs (VA) at its medical centers in 
the community. Through this partnership, HUD and VA will provide 
permanent housing and services for approximately 20,000 homeless 
veterans and their family members, including veterans who have become 
homeless after serving in Iraq and Afghanistan. The VA is working with 
local organizations, including those in HUD's Continuum of Care, to 
help identify eligible clients and provide needed support. HUD-VASH 
will make a significant impact on those who bravely served this great 
Nation and who have been left on our streets.
American Recovery and Reinvestment Act (ARRA) Funding
    ARRA provides unprecedented funding to HUD and other Federal 
agencies to directly confront the very difficult economic times in 
which we live. Overall HUD is responsible for $13.6 billion in ARRA 
funds for housing and community development. The ARRA Homelessness 
Prevention and Rapid Re-Housing Program (HPRP) is specifically targeted 
to confront homelessness. HPRP provides $1.5 billion to communities 
nationwide. These funds were awarded to States, metropolitan cities, 
urban counties and territories.
    The funds are now being used by grantees and subgrantees, including 
nonprofit organizations, to provide an array of prevention assistance 
to persons, including veterans, who but for this assistance would need 
to go to a homeless shelter. The program will also be used to rapidly 
rehouse persons who have become homeless. Program funds can be used to 
provide financial assistance (e.g., rental assistance and security 
deposits) and housing stabilization services (e.g., case management, 
legal services, and housing search). The HPRP funding notice expressly 
references that the program can serve homeless veterans and that 
program funds can be used to provide to homeless veterans with security 
deposits and HUD-VASH can be used for long-term rental assistance. 
Deputy Secretary Ron Sims highlighted the potential to use HPRP funds 
to serve homeless veterans in a keynote address at VA's National Summit 
on Homeless Veterans, held last week.
    HPRP represents a unique opportunity for communities. This 
significant level of funding--which equals the approximate level of 
funding historically appropriated by Congress for all of HUD's other 
homeless programs combined--will enable communities to reshape their 
local homeless systems. For the first time, communities now have 
targeted funding to prevent homelessness. In the past, virtually all of 
HUD's homeless-related programs could only assist persons after they 
became homeless. These funds have the potential to assist persons at 
risk, including veterans, stay in their homes rather than be relegated 
to moving themselves and their families to emergency shelters, or 
worse, the streets. HPRP also will allow communities to significantly 
reduce the time that veterans and others must stay in emergency 
shelters, as HPRP can be used to immediately rehouse persons in 
conventional housing and also provide temporary supports such as case 
management to help ensure housing stability. These two components--
homelessness prevention and rapid rehousing--have been the missing 
links in each communities' Continuum of Care system. Communities now 
have the tools they need to effectively confront homelessness. 
Importantly, the new approaches that communities implement with HPRP 
will have the potential to be carried on, thanks to legislation 
recently passed by the Congress and enacted by the President on May 20, 
2009.
New HUD Homeless Programs
    The recently enacted Homeless Emergency Assistance and Rapid 
Transition to Housing Act (HEARTH) provides unprecedented flexibility 
to confronting homelessness. The Act consolidates HUD's existing 
competitive homeless programs into a single, streamlined program, the 
Continuum of Care Program. The program requires that all stakeholders--
including veterans organizations--determine how the funds should be 
used. The law also reforms the Emergency Shelter Grants program into 
the Emergency Solutions Grant (ESG) program. The new ESG will provide 
for flexible prevention and rapid-rehousing responses to homelessness 
so that veterans and others who are either at risk or who literally 
become homeless may receive assistance. Finally, the legislation 
provides for the Rural Housing Stability Assistance Program to provide 
targeted assistance to rural areas. HEARTH includes as a selection 
criterion for grant award the extent to which the applicant addresses 
the needs of all subpopulations, which includes veterans.
Veteran Homeless Prevention Demonstration
    The 2009 Appropriations Act provides HUD with $10 million for a 
demonstration program to prevent homelessness among veterans as part of 
the appropriation for HUD's homeless programs. HUD is working with the 
VA to design and implement this initiative. Urban and rural sites will 
be selected. The demonstration funds may be used to provide both 
housing and services to prevent veterans and their families from 
becoming homeless or to reduce the length of time veterans and their 
families are homeless. HUD intends to conduct an evaluation of this 
demonstration, with funds provided for by the Congress, and then share 
the results widely through HUD's technical assistance resources to 
organizations serving veterans.
Interagency Collaboration on Homeless Veterans Issues
    Secretary Shaun Donovan is the current Chair of the U.S. 
Interagency Council on Homelessness (USICH). Secretary Donovan has met 
with VA Secretary Shinseki to discuss the needs of homeless veterans 
and how our agencies can work collaboratively to solve this problem.
    Historically HUD and VA have been involved in several 
collaborations related to homelessness among veterans. The agencies are 
currently working together in implementing and operating HUD-VASH. 
Another joint initiative involved reducing chronic homelessness, in 
which HUD provided the housing assistance and the VA and the Department 
of Health and Human Services provided support services to chronically 
homeless persons. HUD is also an ex-officio member of the Secretary of 
VA's Advisory Committee on Homeless Veterans The Committee met last 
week and HUD discussed resources and strategies that can be brought to 
bear on housing homeless veterans.
Technical Assistance
    To coordinate veterans' efforts within HUD, to reach out to 
veterans organizations, and to help individual veterans, HUD 
established the HUD Veterans Resource Center. The Center, headed by a 
veteran, has a 1-800 number to take calls from veterans and to help 
address their individual needs. The Resource Center works with each 
veteran to connect them to resources in their own community.
    HUD's Homelessness Resource Exchange (located at www.HUDHRE.info) 
is HUD's one-stop shop for information and resources for people and 
organizations who want to help persons who are homeless or at risk of 
becoming homeless. It provides an overview of HUD homeless and housing 
programs, our national homeless assistance competition, technical 
assistance information, and more.
    The HUDHRE has a number of materials that address homeless veterans 
issues. For example, HUD dedicated approximately $350,000 to enhance 
the capacity of organizations that do or want to specifically focus on 
serving homeless veterans, update existing technical assistance 
materials, and coordinate with VA's homeless planning networks. As a 
result, we developed two technical assistance guidebooks, available on 
the Web site. The first guidebook, Coordinating Resources and 
Developing Strategies to Address the Needs of Homeless Veterans, 
describes programs serving veterans that are effectively coordinating 
HUD homeless funding with other resources. The second guidebook, A 
Place at the Table: Homeless Veterans and Local Homeless Assistance 
Planning Networks, describes the successful participation of ten 
veterans' organizations in their local Continuums of Care. 
Additionally, we have held national conference calls and workshops to 
provide training and assistance to organizations that are serving, or 
planning to serve, homeless veterans.
Conclusion
    Again, I want to reiterate my and HUD's desire and commitment to 
help end homelessness among our veterans by working effectively with 
our Federal, State, and local partners.
                                 ______
                                 

                PREPARED STATEMENT OF PETER H. DOUGHERTY
 Director of Homeless Veterans Programs, Department of Veterans Affairs
                           November 10, 2009
    Good Morning Mr. Chairman and Mr. Ranking Member. Thank you for the 
opportunity to appear before the Subcommittee. You have called us here 
today to discuss an issue of great importance: Veteran homelessness, 
and what the Department of Veterans Affairs (VA) is doing to end 
homelessness among Veterans. Tragically, Veterans are overrepresented 
among the homeless, and we must do more to end this scourge. We now 
estimate that 131,000 Veterans live on the streets of the wealthiest 
and most powerful Nation in the world; far too many, but a significant 
decline from 195,000 homeless Veterans 6 years ago. Some of those 
homeless are here in Washington, DC--men and women, young and old, 
fully functioning and disabled, even the current operations in Iraq and 
Afghanistan.
    VA's goal is to have a ``no wrong door'' approach so that Veterans 
who seek assistance directly from VA's programs, from community 
partners or through contract services will be able to access the needed 
services. VA has the Nation's largest integrated network of homeless 
assistance programs. We have a strong track record in helping homeless 
Veterans; a study completed several years ago found approximately 80 
percent of Veterans who complete a VA program are successfully housed 1 
year after treatment. In fiscal year (FY) 2010, VA expects to spend a 
total of $3.2 billion to provide health care and specialized homeless 
programs, which includes $500 million in targeted programs for homeless 
programs this fiscal year. VA social workers and clinicians work with 
community and faith-based partners to conduct extensive outreach 
programs, clinical assessments, medical treatments, alcohol and drug 
abuse counseling and employment assistance.
VA's 5-Year Plan on Ending Veteran Homelessness
    We have a goal of ending homelessness among our Nation's Veterans 
within 5 years, which Secretary Shinseki announced last week. We 
formally announced that goal last week at a national summit on ending 
homelessness among Veterans. The Secretary's plan for achieving that 
goal includes bold new measures that will focus on both serving those 
who are seriously impaired and attacking this problem with preventive 
measures like discharge planning for incarcerated Veterans reentering 
society, supportive services for low-income Veterans and their 
families, and a national referral center to link Veterans to local 
service providers. Additionally, we will expand efforts for education, 
jobs, health care (including mental health care) and housing.
    One of VA's most successful tools has been our partnership with the 
Department of Housing and Urban Development (HUD) is where public 
housing authorities receive housing choice vouchers and VA provides 
dedicated case management to appropriate homeless Veterans who need and 
are willing to accept services. We will expand our collaboration on the 
HUD-VA Supportive Housing (HUD-VASH) program to provide 20,000 Housing 
Choice vouchers to Veterans and their families, and we will partner 
with HUD to develop new pilot programs to test a program for at-risk 
Operation Iraqi Freedom and Enduring Freedom (OIF/OEF) Veterans and 
families with homeless prevention services. In Fiscal Year 2009, there 
was a $10 million HUD appropriation and $5 million VA appropriation for 
a demonstration program on the prevention of homelessness among the 
Nation's veterans. Our collaboration with HUD has also grown in scale 
and produced measurable results. In 2008, HUD provided 10,150 HUD-VASH 
vouchers for homeless Veterans. Thanks to the continuing support of 
Congress and the personal leadership of House and Urban Development 
Secretary Shaun Donovan, HUD-VASH II, approved in 2009 for 2010 
implementation, provides 10,290 more vouchers. HUD-VASH vouchers enable 
housing for single Veterans or Veterans with families. Of the 13,000 
Veterans accepted for HUD-VASH housing, 11 percent are women, and 
another 12 percent are Veterans with family members. Safe housing is a 
critical step to ending homelessness among Veterans, especially among 
women Veterans and Veterans with children. This effort is having very 
positive results, and we thank Congress for authorizing this very 
effective and beneficial tool.
    We are also making enhanced efforts to provide opportunities to 
return Veterans to employment, including the new Post-9/11 GI Bill. The 
new GI Bill is providing a powerful option for qualified Veterans to 
pursue a fully funded degree program at a State college or university 
and will serve as a major component of the fight against Veteran 
homelessness.
    This program will require close partnership with Federal and State 
agencies, local, nonprofit, and private groups; outreach and education 
to Veterans, people and organizations providing services to Veterans, 
and the general public; universal and targeted prevention; treatment 
focused on recovery and tailored to individual Veterans' needs; housing 
and supportive services; and income, employment and benefits 
assistance.
    For example, we will continue our collaborative efforts with the 
Department of Labor to provide employment services. VA is working with 
the Small Business Administration and the General Services 
Administration to certify Veteran-owned small businesses and service-
disabled Veteran-owned small businesses for listing on the Federal 
Supply Schedules, which enhances their visibility and competitiveness, 
creating jobs for Veterans. VA will also work closely with the 
Departments of Education, Labor, Health and Human Services, and Housing 
and Urban Development, the Small Business Administration, the U.S. 
Interagency Council on Homelessness, State directors of Veterans 
Affairs, and Veterans Service Organizations, as well as national, 
State, and local service providers and community groups.
    We think we are making appropriate efforts to have the right 
partners, the right plans, and the right programs in place on safe 
housing. We will monitor and adjust the balance as required to continue 
increasing our gains in eliminating Veteran homelessness. We are moving 
in the right direction to remove this blot on our consciences, but we 
have more work to do.
    At the summit on ending Veteran homelessness last week, we shared 
ideas on new efforts. During this conference, approximately 1,200 
homeless service providers from Federal and State agencies, the 
business community, and faith-based and community providers 
participated and discussed the Department's 5-year plan.
    Effectively addressing homelessness requires breaking the downward 
spiral that leads Veterans into homelessness. We must continue to 
improve treatment for substance abuse, depression, traumatic brain 
injury (TBI) and post-traumatic stress disorder (PTSD); better 
educational and vocational options, better employment opportunities; 
and more opportunities for safe and hospitable housing. Early 
intervention and prevention of homelessness among Veterans is critical. 
We have to do it all; we simply cannot afford any missed opportunities. 
We will leave no opportunity unexplored, and we will continue this 
pursuit until every Veteran has safe housing available and access to 
needed treatment services. We are eager to work together with Congress 
to achieve these goals.
Continuing Efforts
    VA partners with more than 600 community organizations to provide 
transitional housing to 20,000 Veterans. It also works with 240 public 
housing authorities to provide permanent housing to homeless Veterans 
and their families under a partnership with the Department of Housing 
and Urban Development.
    Earlier this year, we established the National Center on 
Homelessness Among Veterans. The Center will work to ensure homeless or 
at-risk Veterans and their families receive timely, practice-proven 
services to either prevent homelessness or exit homelessness. The 
primary goal of the Center is to develop, promote, and enhance policy, 
clinical care research, and education to improve homeless services so 
that Veterans may live as independently and self-sufficiently as 
possible in a community of their choosing. We believe the Center will 
be a national resource for both VA and community partners, improving 
the quality and timeliness of services delivered to homeless or at-risk 
Veterans and their dependents.
    In October, Secretary Shinseki announced that 29 grants were 
awarded to create new transitional housing under our Homeless Grant and 
Per Diem (GPD) program in 19 States, the District of Columbia and 
Puerto Rico. This initiative will share more than $17 million in grants 
to community groups to create 1,155 beds for homeless Veterans this 
year. For example, this program will support:

  <bullet>  four programs in New York and more than 160 beds;

  <bullet>  one program in Oregon with 10 beds;

  <bullet>  one program in South Carolina providing almost 100 beds;

  <bullet>  one project in Tennessee with 14 beds; and

  <bullet>  two projects in Texas that will offer more than 200 beds, 
        as well as two vans.

    These grants will aid our efforts to eliminate homelessness among 
those who have served in uniform. Our partnerships with community-based 
organizations provide safe, transitional housing while these Veterans 
leverage VA's health care and other benefits to return to productive 
lives.
    This year, VA implemented new safety standards in the facilities 
providing Mental Health Residential Rehabilitation and Treatment 
Programs, including 24/7 staffing and keyless entry. Our GPD program 
activated 55 new projects for a total of 1,090 beds since October 2008. 
New homeless prevention initiatives assist Veterans at risk for 
homelessness to maintain their residences in the community by 
addressing factors which lead to becoming homeless.
Mental Health Care
    The psychological consequences of combat affect every generation of 
Veterans. VA now employs 18,000 mental health professionals to address 
their mental health needs. We know if we diagnose and treat, people can 
improve. If we don't, they won't--and sometimes their problems become 
debilitating. We understand some see a stigma attached to seeking 
mental health care, but we are not going to be dissuaded. We have 
integrated mental health care into primary care settings to help 
identify Veterans at risk and provide them treatment before their 
conditions worsen. We will not give up on any of our Veterans with 
mental health challenges, and particularly not the homeless. At the end 
of October, VA and the Department of Defense (DoD) cosponsored a 
national summit on mental health care to help both agencies better 
coordinate mental health care for those who serve our country and those 
who formerly wore the uniform.
Newest Generation of Veterans
    We know from past experience that homelessness among Veterans peaks 
7-10 years after military service, and we are conducting aggressive 
early intervention now to ensure Operation Enduring Freedom and 
Operation Iraqi Freedom (OEF/OIF) Veterans do not have that same 
experience. Our current efforts have reached nearly 3,800 OEF/OIF 
Veterans, more than 1,100 of whom have sought homeless specific housing 
or treatment services. Since 2003, VA has expedited 28,000 claims for 
compensation and pension for Veterans who are homeless or at-risk of 
homelessness.
Incarcerated Veterans
    Every year, 40,000 Veterans are released from prison. This is part 
and parcel of the larger discussion about homelessness. We recognize 
the needs of Veterans who have been incarcerated, and in 2009, VA 
implemented a new initiative to support State and local Veterans Court 
Programs. This program provides VA health care instead of incarceration 
for eligible Veterans with substance use disorders, PTSD or mental 
health conditions. Our Incarcerated Veterans Re-Entry program has 
contacted and supported more than 13,000 Veterans since 2007 and has 
contacts in more than 1,000 Federal and State prisons across the 
country (two-thirds of all prisons). Veterans Justice Outreach 
Specialists are working with courts to develop relationships and 
referral procedures.
    We are reaching out to courts, prosecutors, defense attorneys, and 
police and other first responders. We began training these specialists 
in September. This complements existing VA programs that provide 
outreach to incarcerated Veterans. We have received enthusiastic 
responses from State Supreme Court Justices, Judges, Veterans Service 
Organizations and State Directors of Veterans Affairs. VA is working to 
overcome homelessness with programs that impact high-risk individuals 
such as Veterans involved in the Criminal Justice System. VA will 
provide additional training in FY2010, and will continue outreach to 
State Attorneys General, American Bar Association and national bar 
associations.
Helping Veteran Homeowners
    Another key element of our strategy to end homelessness among 
Veterans is to prevent them from becoming homeless in the first place. 
Section 604 of Public Law 110-387, codified at 38 U.S.C. 2044, provides 
VA with authority to offer grants to organizations offering supportive 
services for low-income Veterans and their families. VA is currently 
developing regulations to implement this legislation. The 
Administration has pursued a number of initiatives to keep such 
homeowners, including Veterans, in their residences. In addition, the 
Veterans Benefits Administration offers assistance to Veterans who 
encounter problems making their mortgage payments. When a VA-guaranteed 
home loan becomes delinquent, the loan servicer has the primary 
responsibility of servicing the loan to help cure the default. VA 
provides financial incentives for servicers who arrange reasonable 
repayment plans or pursue other home retention options for Veterans.
    In some cases loan modification may help make payments more 
affordable, and VA made extensive rule changes in early 2008 to make 
loan modifications easier for servicers to arrange. However, in cases 
where the servicer is unable to help the Veteran borrower retain the 
home or find a suitable alternative to foreclosure, VA's Loan Guaranty 
Service has Loan Technicians in nine Regional Loan Centers and the 
Hawaii Regional Office who review all cases prior to foreclosure to 
evaluate the adequacy of the loan servicing. Loan Technicians may 
initiate supplemental servicing by contacting the Veteran to determine 
whether any further assistance is possible, and Veterans may also call 
a nationwide toll-free contact number at any time during the process to 
receive loan counseling from VA.
    In other cases, VA will purchase a loan from the holder and modify 
the terms so that a Veteran can retain his or her home. The Regional 
Loan Centers can also provide advice and guidance to Veterans with non-
VA guaranteed home loans, but VA does not have the legal authority or 
standing to intervene on the borrower's behalf in these situations. 
Under the Veterans' Benefits Improvement Act of 2008 (Public Law 110-
389), Veterans with non-VA guaranteed home loans have new options for 
refinancing to a VA guaranteed loan. Veterans who wish to refinance 
their subprime or conventional mortgage may do so for up to 100 percent 
of the value of the property, generally up to a maximum of $417,000. 
High-cost counties have even higher maximum guaranty amounts, which can 
result in higher maximum loan limits. These changes allow more 
qualified Veterans to refinance through VA, allowing for savings on 
interest costs and avoiding foreclosure. Additionally, some Veteran 
borrowers may be able to request relief pursuant to the Servicemembers 
Civil Relief Act (SCRA). In order to qualify for certain protections 
available under the Act, the Veteran's obligation must have originated 
prior to the current period of active military service. SCRA may 
provide a lower interest rate or forbearance, or prevent foreclosure or 
eviction, even after the borrower's period of military service ends.
Conclusion
    Housing, health care, jobs, and education--these are the critical 
areas where VA is focusing to address Veteran homelessness. We have 
work to do here; but we have momentum, and we know where we are headed. 
We are positively engaged with the Departments of Housing and Urban 
Development, Labor, Health and Human Services, Education, and the Small 
Business Administration to work our collaborative issues. I know that 
Congress, Secretary Shinseki, and President Obama are committed to 
helping VA end homelessness among Veterans. No one, who has served this 
Nation, as our Veterans have, should ever find themselves living 
without care--and without hope. I know that there are never any 
absolutes in life, but unless we set an ambitious target, we would not 
be giving this our very best efforts in education, jobs, mental health, 
substance abuse, and housing.
    Thank you again for the opportunity to testify. I am available to 
answer any questions you may have.

                PREPARED STATEMENT OF MELANIE LILLISTON
 Director of Technical Assistance and Finance, National Coalition for 
                           Homeless Veterans
                           November 10, 2009
    Chairman Menendez, Ranking Member Senator Vitter, and Distinguished 
Members of the Committee: The National Coalition for Homeless Veterans 
(NCHV) is honored to appear before this Committee today to comment on 
ending veterans' homelessness.
    For 20 years, NCHV has worked diligently to serve as the Nation's 
primary liaison between the community- and faith-based organizations 
that help homeless veterans, the Congress, and the Federal agencies 
that are invested in the campaign to end veteran homelessness in the 
United States.
    The efforts have been commendable and we are grateful that we have 
such dedicated and passionate leadership within the Department of 
Veterans Affairs, Department of Labor and the Department of Housing and 
Urban Development. Through the VA's Grant and Per Diem program over 
15,000 veterans are being served in transitional housing programs each 
year. The Homeless Veterans Reintegration Program (HVRP), administered 
by the Department of Labor-Veterans Employment and Training Service, 
has continued to grow each year and now serves veterans in nearly 100 
communities throughout the country. HUD has expanded its efforts 
through the HUD-VA Supportive Housing Program (HUD-VASH) for those 
veterans who have serious mental illness or disabilities that keep them 
from living successfully on their own. Through these efforts and the 
efforts of the community-based partners NCHV represents, we have made 
significant progress in the effort to end veteran homelessness. 
However, our work is not done until the last veteran is off the 
streets.
    In March of this year, President Obama stated, ``We will provide 
new help for homeless Veterans because those heroes have a home--it's 
the country they served, the United States of America. And until we 
reach a day when not a single Veteran sleeps on our Nation's streets, 
our work remains unfinished.'' This bold statement has served as the 
catalyst for creating a 5-Year Plan To End Homelessness Among Veterans, 
an initiative of VA Secretary Eric Shinseki. Just last week at a summit 
hosted by the VA, Secretary Shinseki stated, ``Let me reiterate that 
this is not a summit on homeless veterans--it's a summit to end 
homelessness among veterans. That's our purpose. President Obama and I 
are personally committed to ending homelessness among veterans within 
the next 5 years.''
    To demonstrate his commitment, Secretary Shinseki has created a 5-
year plan that would expand the VA's partnerships and collaborations 
between the Federal agencies and community-based service providers. 
Four of the six strategic pillars of the plan build upon the work of 
the past two decades: outreach, treatment, employment and benefits, and 
community partnerships. Two represent new critical focuses--prevention, 
and housing and supportive services for low-income veterans.
    Currently there are 14 bills pending before the House of 
Representatives and the Senate that would have a direct impact on the 
delivery of services to homeless veterans and those at risk of becoming 
homeless. These bills would move Secretary Shinseki's historic plan 
forward.
    NCHV acknowledges the leadership role of this Subcommittee, and 
that of the full Committee, in this noble effort. There are three key 
bills that lay the foundation on which we, as a Nation, can build a 
successful, comprehensive campaign to end and prevent homelessness 
among veterans and fulfill the Secretary's 5-Year Plan.
S. 1547--Zero Tolerance for Veteran Homelessness Act of 2009
    For several years the homeless veteran assistance movement NCHV 
represents has realized there can be no end to veteran homelessness 
until we develop a strategy to address the needs of our former 
guardians before they become homeless--victims of health and economic 
misfortunes they cannot overcome without assistance.
    The causes of all homelessness can be grouped into three primary 
categories: health issues, economic issues, and lack of access to safe, 
affordable housing for low- and extreme-low income families in most 
American communities.
    The additional stressors veterans experience are prolonged 
separation from family and social support networks while engaging in 
extremely stressful training and occupational assignments; war-related 
illnesses and disabilities--both mental and physical; and the 
difficulty of many to transfer military occupational skills into the 
civilian workforce.
    NCHV believes the Zero Tolerance for Veteran Homelessness Act of 
2009, introduced by Senators Reed, Bond, Murray, Johnson, Kerry, and 
Durbin--with the support of 12 cosponsors--has the potential to set 
this Nation on course to finally achieve victory in the campaign to end 
veteran homelessness in the United States.
    Victory in this campaign requires success on two fronts--effective, 
economical intervention strategies that help men and women rise above 
adversity to regain control of their lives; and prevention strategies 
that empower communities to support our wounded warriors and their 
families before they lose their ability to cope with stressors beyond 
their control.
    We believe the Zero Tolerance for Veteran Homelessness Act 
addresses needs on both fronts.

  <bullet>  The Act provides for the expansion of HUD-VASH to a total 
        of 60,000 housing vouchers for veterans with serious mental and 
        emotional illnesses, other disabilities, and extreme low-income 
        veteran families that will need additional services to remain 
        housed. According to an analysis of data by the National 
        Alliance To End Homelessness, about 63,000 veterans can be 
        classified as chronically homeless. This Act would, therefore, 
        effectively end chronic veteran homelessness within the next 5 
        years.

  <bullet>  The Act provides authorization for up to $50 million 
        annually to provide supportive services for low-income veterans 
        to reduce their risks of becoming homeless, and to help those 
        who are find housing. Provisions include short- to medium-term 
        rental assistance, poor credit history repair, housing search 
        and relocation assistance, and help with security and utilities 
        deposits. For many among the Nation's 630,000 veterans living 
        in extreme poverty (at or below 50 percent of the Federal 
        poverty level), this aid could mean the difference between 
        achieving stability and continuing on the downward spiral into 
        homelessness.

  <bullet>  The Act would modernize the extremely important and 
        successful VA Grant and Per Diem Program (GPD) to allow for the 
        utilization of innovative project funding strategies--including 
        the use of low-income housing tax credits and matching funds 
        from other Government sources to facilitate and hasten project 
        development.

  <bullet>  The Act calls for the Secretary of Veterans Affairs to 
        study the method of reimbursing GPD community providers for 
        their program expenses and report to Congress, within 1 year, 
        his recommendations for revising the payment system. For years 
        service providers have appealed for a system that reflects the 
        actual cost of providing services to veterans with multiple 
        barriers to recovery rather than a ``per diem'' rate based on 
        reimbursements paid to State veterans' homes.

  <bullet>  The Act calls for an increase in the annual GPD 
        authorization to $200 million, beginning in FY2010, which could 
        provide additional funds for outreach through community-based 
        veteran service centers and mobile service vans for rural 
        areas, while continuing to increase the bed capacity of VA's 
        community-based partners. These outreach initiatives will 
        likely play a pivotal role as the VA's veteran homelessness 
        prevention strategy moves forward.

  <bullet>  The Act would establish within HUD a Special Assistant for 
        Veterans Affairs to ensure veterans have access to housing and 
        homeless assistance programs funded by the Department.
S. 1160--The Homes for Heroes Act of 2009
    One of the greatest challenges community-based organizations face 
is how to provide long-term housing and services to veterans and their 
families. Due to multiple deployments, financial difficulties, 
disabilities sustained in combat and other family stressors, family 
members and the children of veterans often are in need of support and 
services when their loved ones come back from war. Currently, 
community-based providers are unable to access dedicated funding to pay 
for housing or services for veteran families. The Homes for Heroes Act 
provides funding for the development of housing for low-income veteran 
families and provides the mechanism to distribute these much needed 
supportive services.
    According to the 2009 VA CHALENG survey, long-term housing ranks in 
the top 10 reported unmet needs of veterans. Finding and obtaining safe 
and secure housing is often the biggest obstacle veterans in recovery 
face. This bill will allow low- and extremely low-income veterans to 
access housing and the vital services they need in order to be 
successful citizens.
    Introduced by Senator Charles Schumer, Durbin, Brown, and Menendez, 
the Homes for Heroes Act would:

  <bullet>  Provide $200 million annually for the development of 
        supportive housing for veterans who need case management and 
        wrap-around services to remain housed.

  <bullet>  Fund 20,000 rental assistance vouchers for extremely low-
        income veteran families (those living at or below 50 percent of 
        the Federal poverty level), estimated at approximately 630,000 
        veterans. These individuals represent those who are at highest 
        risk of becoming homeless and most in need of prevention 
        supports.

  <bullet>  Create the position of veteran liaison within the 
        Department of Housing and Urban Development to ensure veteran 
        inclusion in all HUD housing programs, and require inclusion of 
        veteran data in local housing plans.

    More and more families are requesting services and affordable 
housing, and providing this support would reduce the likelihood that 
many veteran families in crisis will continue on a downward spiral into 
homelessness.
S. 1237--Homeless Women Veterans and Homeless Veterans With Children 
        Act of 2009
    One of the most daunting challenges in the campaign to end veteran 
homelessness is presented by the changes in the demographics of this 
special needs population. For the first time in American history, women 
comprise more than 11 percent of the forces deployed to serve in the 
wars in Iraq and Afghanistan, according to Department of Defense (DoD) 
figures early this year, including more than 30,000 single women with 
dependent children (DoD, March 2009). The VA anticipates women will 
account for 15 percent of the Nation's veterans within the next 10 
years.
    Because of the Nation's reliance on Reserve and National Guard 
personnel, men and women must leave their families at the highest rate 
since World War II--approximately half of them for multiple 
deployments. This places considerable strain on family relationships, 
which in turn makes the difficult process of readjustment to civilian 
life after wartime service even more stressful.
    Currently more than 5 percent of veterans requesting assistance 
from VA and community-based homeless veteran service providers are 
women. According to VA officials, more than half of these veterans are 
between the ages of 20-29, a majority represent minority communities, 
and roughly 24 percent are disabled or were medically retired from the 
service. More than 10 percent of these women have dependent children.
    Senators Murray, Johnson, and Reed, in introducing this bill, 
recognize the same readjustment difficulties for single women veteran 
parents are experienced by single male parents. During the last 2 
years, more than 11 percent of male veterans receiving housing vouchers 
in the HUD-VASH program are single parents with dependent children, 
according to VA officials.
    According to VA data in its annual CHALENG Reports, the highest 
unmet needs of homeless single veterans with dependent children are:

  <bullet>  Child care assistance

  <bullet>  Legal aid for credit repair and child support issues

  <bullet>  Access to affordable permanent housing

    S. 1237 would authorize up to $10 million in grants to community- 
and faith-based organizations to provide critical, specialized supports 
for these deserving men and women as they work their way out of 
homelessness. There are about 200 homeless veteran assistance providers 
under the VA Homeless Providers Grant and Per Diem Program (GPD) that 
offer housing assistance for women veterans. More than 90 community-
based programs offer job preparation and placement assistance to 
homeless veterans under the Homeless Veterans Reintegration Program--
one of the most efficient, effective programs in the Department of 
Labor portfolio.
    These programs provide irrefutable evidence that stable, safe 
transitional housing--with access to health and employment services--
empowers the great majority of homeless veterans to achieve self-
sufficiency within their eligibility limits. The addition of child care 
assistance promises to enhance those successful outcomes through 
supports that will enable veteran parents to pursue their employment 
goals without having to worry about the health and safety of their 
children.
    NCHV believes this funding level would allow for immediate 
implementation of an employment assistance program for homeless women 
and homeless single parents with dependent children within an existing 
and highly successful service provider community, and allow for 
evaluation of the effectiveness of this innovative strategy.
In Summation
    On this day before Veterans Day, I want to thank you for your 
support helping the men and women who have served this country in their 
greatest hour of need. The successes we have seen in decreasing the 
number of homeless veterans over the last 5 years would not have 
happened without your support and leadership.
    These three bills are vital for the Secretary's Five-Year Plan to 
move forward. From the increase in the number of HUD-VASH vouchers, and 
the ability to provide supportive services for low-income and women 
veterans, to the improvement and expansion of the GPD program, these 
bills provide real opportunities to move the PLAN into ACTION and 
fulfill the historic mission to end homelessness among America's former 
guardians in 5 years.
    Once again, on behalf of the veterans we all serve, thank you for 
your support. I can think of no better way to say ''thank you'' to 
those who have served this Nation than continuing to serve those 
veterans who need our help the most.
                                 ______
                                 

                  PREPARED STATEMENT OF STEVEN R. BERG
   Vice President for Programs and Policy, National Alliance To End 
                              Homelessness
                           November 10, 2009
    Chairman Dodd, Ranking Member Shelby, and Members of the 
Subcommittee, on behalf of our Board of Directors, our President Nan 
Roman, and our thousands of partners across the country, I am honored 
that you have invited the National Alliance To End Homelessness to 
testify before you on veteran homelessness. Veteran homelessness is one 
of the most pressing issues plaguing our Nation today, and by moving 
toward a solution to this problem we are serving these men and women as 
they have once done for us.
    The National Alliance To End Homelessness is a nonpartisan, 
nonprofit organization that was founded in 1983 by a group of leaders 
deeply disturbed by the appearance of thousands of Americans living on 
the streets of our Nation. We have committed ourselves to finding 
permanent solutions to homelessness. Our bipartisan Board of Directors 
and our thousands of nonprofit, faith-based, private and public sector 
partners across the country devote ourselves to the affordable housing, 
access to services, and livable incomes that will end homelessness. The 
Alliance is recognized for its organization and dissemination of 
research to encourage best practices and high standards in the field of 
homelessness prevention and intervention and we wish to share our 
insights with you today.
    As our name implies, our primary focus is ending homelessness, not 
simply making it easier to live with. We take this idea very seriously. 
There is nothing inevitable about homelessness among veterans in the 
United States. We know more about veteran homelessness and how to 
address it than we ever have before, thanks in part to extensive 
research. We know a great deal about the pathways into homelessness, 
the characteristics of veterans who experience homelessness and the 
interventions and program models which are effective in offering 
reconnection to community and stable housing.
    This testimony will summarize the research available on 
homelessness among veterans and the most promising strategies currently 
successful at addressing this issue in community settings, as well as 
policy recommendations to implement these strategies to the national 
scale.
Homelessness Among Veterans
    Far too many veterans are homeless in America. In November 2007, 
the Homelessness Research Institute of the National Alliance To End 
Homelessness first published Vital Mission, Ending Homelessness Among 
Veterans, quantifying this problem as well as reporting on housing 
status among veterans. Today, the Alliance is publishing its second 
annual update to this report, using new analysis and more recent date 
to deepen our understanding of the issue. Today's update uses data from 
homelessness counts that took place in early 2008, as well as other 
sources. The update includes the following findings.

  <bullet>  131,000 veterans were homeless at a point in time in early 
        2008. This number is lower than 2 years earlier, and it is 
        probable that some reductions had taken place, but much of the 
        reduction is due to methodological differences. It is also 
        possible that rapidly rising unemployment since early 2008 has 
        increased the number of homeless veterans in more recent 
        months.

  <bullet>  58 out of every 10,000 veterans are homeless, a ratio more 
        than double the rate of homelessness within the nonveteran 
        population. This rate varies markedly by State and locality.

  <bullet>  The demographic of homeless veterans follows the 
        demographic of the overall veteran population: women represent 
        a small but growing proportion of homeless veterans as well as 
        veterans overall. Veterans aged 55-64 represent 25 percent of 
        the homeless veteran population and 29 percent of the overall 
        veteran population.

  <bullet>  Veteran homelessness tends to be concentrated near military 
        and veteran centers such as military bases and VA medical 
        centers. Texas, the State with the highest concentration of 
        military bases, is reported to have 9,063 homeless veterans. 
        Along with Louisiana, home to one of the larger VA medical 
        centers nationally, has 3,600 homeless veterans, a rate of 118 
        homeless veterans to every 10,000 overall Louisiana veteran 
        residents.
Housing Status of Veterans
    What all homeless people have in common is the lack of a place to 
live--homelessness is at base a problem of housing availability and 
affordability. When we first analyzed this data, we assumed that the 
disproportionate representation of veterans in the homeless population 
must be due to the fact that veterans have housing problems. So we 
looked at the housing situation of veterans more generally, examining 
the American Community Survey data (for 2005--the most recent data 
available at the time of the research). In fact, we found that, when 
viewed as a group, veterans can typically afford their monthly housing 
costs.
    But while the average veteran is well housed, there is a subset of 
veterans who rent housing and have severe housing cost burdens. Those 
that are most vulnerable and/or face the worst crises, lose their 
housing, have no other help available, and become homeless.

  <bullet>  In 2005, 467,877 veterans were severely rent burdened and 
        were paying more than 50 percent of their income for rent.

  <bullet>  Not surprisingly, many of these veterans were poor. More 
        than half (55 percent) of veterans with severe housing cost 
        burden fell below the poverty level and 43 percent were 
        receiving foods stamps.

  <bullet>  California, Nevada, Rhode Island, and Hawaii were the 
        States with the highest percentage of veterans with severe 
        housing cost burden. The District of Columbia had the highest 
        rate, with 6.5 percent of veterans devoting more than 50 
        percent of their income to rent.

    We examined the characteristics of this group of veterans paying 
too much for housing and we found the following.

  <bullet>  Veterans with a disability are more likely to have severe 
        housing cost burden. They are twice as likely to have a work 
        disability as other veterans (18 percent versus 9 percent). 
        Similarly, they are twice as likely to have a disability that 
        limits their mobility (20 percent versus 10 percent).

  <bullet>  Female veterans are more likely to have housing cost 
        burdens. Although women are only 7 percent of veterans, they 
        represent 13.5 percent of veterans with housing cost burdens. 
        And while 13 percent of them have housing cost burdens, only 10 
        percent of male veterans have such burdens.

  <bullet>  Unmarried veterans are more likely to have cost burdens by 
        a factor of nearly two. Thirteen percent of veterans who do not 
        have a spouse have severe housing cost burden versus 7 percent 
        of those who are married.

  <bullet>  Period of service seems to matter. Veterans who left the 
        military between 1980 and 2003 are less likely than earlier 
        veterans to have housing cost burden. Somewhat surprisingly, 
        older veterans from the Korean War and World War II are more 
        likely to have housing cost burdens. These are comparisons of 
        rate. By sheer size, Vietnam War veterans make up the largest 
        group of those with housing cost burdens.

  <bullet>  In 2005, approximately 89,553 to 467,877 veterans were at 
        risk of homelessness. The lower estimate is renters with 
        housing cost burden, living below the poverty level, disabled, 
        living alone, and not in the labor force. The upper estimate is 
        all renters with housing cost burden.
Needed Federal Response
    Of all the population groups impacted disproportionately by 
homelessness, veterans are the one where the Federal Government has 
taken direct responsibility for the well-being of the entire group, as 
it should be. The Federal Government, through the VA, is in a position 
to set an example for how to safeguard a vulnerable population from 
homelessness. At present, however, this is not being accomplished, 
despite existing programmatic initiatives, and despite the fact that 
sufficient understanding exists regarding the nature of homelessness 
and the programmatic and policy responses needed to end it. The rest of 
this testimony describes what is needed in order to complete this 
response, and to reach a point where homelessness among veterans is not 
only said to be intolerable, but is in fact not tolerated.
    Across the country, leading communities have made substantial 
progress at reducing the number of people who are homeless. The keys to 
success have become well known:

  <bullet>  Leadership that takes responsibility for achieving results.

  <bullet>  Permanent supportive housing targeted at those who have 
        been homeless the longest and have the most severe 
        disabilities.

  <bullet>  Prevention and rapid rehousing programs that solve people's 
        housing crises, preferably before they become homeless.

  <bullet>  Collaboration with the entire range of systems that impact 
        the problem, around the goal of ending homelessness.

    To achieve these ends for veterans, the Alliance recommends the 
following:
    Pass the Homes for Heroes Act (S. 1160) to create a HUD sponsored 
permanent supportive housing production program. For disabled low 
income veterans who require ongoing services in order to stay stably 
housed, permanent supportive housing is a proven solution. This program 
is a needed companion to the widely popular HUD-VASH program, in that 
it would help provide housing stock for homeless and at risk veterans.
    Continue to expand the HUD-VA Supportive Housing program. This 
proven program provides rental assistance through HUD's popular Section 
8 voucher program; and case management, treatment and support services 
through the VA. It replicates the highly successful model of permanent 
supportive housing, getting veterans with the most severe, permanent 
disabilities off the streets for good. Permanent supportive housing for 
all veterans who need this level of intensive intervention to escape 
homelessness will require 60,000 HUD-VASH vouchers and accompanying 
case management and services. Funding for 20,000 has already been 
appropriated, and 10,000 more are included in House and Senate FY2010 
appropriations bills.
    Give the VA the authority to run larger scale homelessness 
prevention and rapid rehousing programs. Allowing the VA to provide 
homeless prevention and rapid rehousing services is a key intervention 
in communities that have had success with homelessness. This means 
reaching out to veterans who either have recently lost their housing or 
are in danger of doing so; working with landlords and family members to 
resolve conflicts; working to give the veteran access to employment, 
benefits, health care, and other needed income and services; and 
providing short term cash assistance to pay a security deposit, catch 
up on unpaid rent, etc. In the Senate, the Zero Tolerance for Veterans 
Homelessness Act would authorize such a program.
    Support results-oriented VA homelessness programs. Existing VA 
homelessness programs such as the Homeless Grants and Per Diem Program, 
providing temporary housing and treatment for veterans for whom an 
abstinence model is appropriate, are in the process of being expanded 
through the appropriations process. These programs also require policy 
adjustments to allow better cooperation with other Federal housing 
programs, more flexibility, and a greater focus on outcomes and 
appropriate targeting.
Conclusion
    I am not happy to report that our Nation now has some 20 years of 
experience on the issue of homeless veterans. We know that while some 
veterans become homeless immediately after discharge, for many more 
their difficulties take years to emerge. We know that post-traumatic 
stress disorder, traumatic brain injuries and other factors of war may 
make them vulnerable to increasing poverty and housing problems. And we 
know that housing and supportive housing are a solution to these 
problems.
    Tens of thousands of veterans will be returning from Iraq and 
Afghanistan. While some have already experienced homelessness, the 
numbers are not large. Experience from the Vietnam era, however, 
teaches that there is a possibility of delayed impact of combat service 
on homelessness, especially when veterans are returning to high 
unemployment. If we do not take advantage of all that we have learned 
about solutions to homelessness, in the future we can expect to see 
thousands more veterans on our streets and in our shelters.
    We have a tremendous opportunity before us. There is unprecedented 
public will that we not make the same mistakes with the veterans of the 
current conflicts as we did with veterans from the Vietnam era and 
after, and that we do whatever is necessary to prevent these veterans 
being consigned to the streets. That same public will gives us an 
opportunity as well to rectify those previous mistakes, and house 
veterans who have lived in the street for years. Now is the time to be 
bold. We can prevent veterans from becoming homeless. We can house 
those veterans who are already homeless. And we can ensure that all 
veterans, including those with low incomes, have stable, decent and 
affordable housing. This is our vital mission.
    Thank you for inviting us to testify before you today on this 
critical issue.
                                 ______
                                 

                  PREPARED STATEMENT OF JACK S. FANOUS
              Executive Director and Founder, G.I. Go Fund
                           November 10, 2009
    Chairman Menendez, Senator Vitter, and Members of the Subcommittee: 
Thank you for this opportunity to testify on the difficulties our 
Nation's homeless veteran's face and the steps our organization is 
taking to answer the call to end all homelessness among veterans within 
5 years.
    I am the executive director and founder of The G.I. Go Fund, a 
grassroots 501(c)(3) nonprofit organization with a mission to assist 
our Nation's heroes along the difficult path of transition.
    The G.I. Go Fund was founded in 2006 following the death of one of 
my closest childhood friends, Army Lt. Seth Devorin, from wounds he 
suffered while attempting to dismantle an IED in Iraq. The organization 
began as a small community group, which aimed to preserve the memory of 
my friend through providing days of rest and relaxation to our Nation's 
veterans. However, as we began to spend time with these men and women, 
we began to understand that their problems and their fears had not 
merely ended the minute they returned home and stepped on to American 
soil. In fact, they had just begun.
    Our veterans, who have just endured and survived the unimaginable, 
are now expected to execute a smooth transition back to their civilian 
lives. They are expected to reestablish relationships with family and 
friends. They are expected to find either long-term, secure employment 
based on their ``work'' experience in the military or are expected to 
become a student utilizing the Post 9/11 GI Bill, all while being 
expected to tend to the physical and mental wounds associated with 
combat by fully utilizing their Veterans Administration benefits. It 
has been my experience that a fragmented transition, which results from 
one of these steps being missed or mishandled, leaves our veterans to 
face a myriad of problems that can range from fractured family ties, 
unemployment, depression, and many others. This is all in addition to 
the veteran experiencing a physical or mental wound. These issues 
fester and manifest into a chronically debilitating ailment. Fragmented 
transitions often result in deep depressions and eventual substance 
abuse by our veterans who feel they have nowhere left to turn. 
Ultimately, a fragmented transition is the primary cause of 
homelessness among our Nation's veterans, and we must formulate a two-
pronged approach that first works to avoid future homelessness among 
new veterans, while simultaneously ending the current disaster.
    This two-pronged approach was adopted by Mayor Cory A. Booker of 
Newark, New Jersey, who has partnered with our organization to provide 
the City with the first-ever nonprofit-run municipal office of 
veteran's affairs in the country, which assists returning veterans with 
their transition, while assisting the homeless veteran population to 
find suitable transitional housing.
Preventing Homelessness Among Iraq and Afghanistan Veterans
    When a soldier returns to the United States from Iraq or 
Afghanistan, he or she is immediately inundated with the problems many 
Americans face today, which include unemployment, an empty 
refrigerator, shut-off notices, or an eviction or foreclosure notice. 
While our organization has assisted thousands of American military 
families with these problems as they arise by hosting job fairs to 
address unemployment, providing direct financial assistance to help put 
food on the table and keep a roof over their heads, it is just never 
enough.
    First, our Nation's lending institutions need to be more 
understanding of the difficulties that our veterans face during their 
transition back to civilian life, by providing ample time for our 
veterans to secure a job to get their lives in order, and keep a roof 
over their families' heads.
    However, the root of these financial difficulties usually stem from 
unemployment. Like any one of us here today, a veteran cannot pay for 
groceries if they are unemployed. A veteran cannot pay for utilities if 
they are unemployed. A veteran cannot pay a mortgage if they are 
unemployed. However, unlike the rest of us sitting here today, these 
men and women have been defending our Nation's freedom against the 
threat of terrorism, causing them to miss years of their lives. Our 
Nation's veterans deserve our patience, assistance, and understanding 
that it will take some time to put their lives back together.
    To prevent homelessness among today's returning soldier we need to 
emphasize to employers the benefits of hiring a loyal, hardworking, 
dedicated veteran. With the unemployment rate among veterans up to 
three times higher than the national average, more and more of our 
Nation's heroes are facing these financial disasters with little help. 
We need to expand the Department of Labor's Office of Federal Contract 
Compliance Programs (OFCCP), which oversees the hiring practices of 
Federal contractors as it pertains to women, minorities, veterans, and 
people with disabilities. While the OFCCP requires that statistics be 
provided showing the number of women and minorities a Federal 
contractor employs, no such requirements exist for their veteran 
employees. The Federal Government must be able to track the hiring 
practices of these Federal contractors as they pertain to veterans. If 
and only if Federal contractors, as well as all of our Nation's 
employers take affirmative action to hire our veterans now, will we be 
able to end the flow of veterans onto the streets.
    Concurrent to providing veterans every employment opportunity and 
benefit, we must also find a more suitable, logical, and efficient 
method to help our veterans navigate the remaining complex process of 
transition. Our organization is in the process of creating a true ``One 
Stop Center'' that will make a veterans transition smooth, efficient, 
and effective. This center will provide office space to Government 
agencies, nonprofits, and other organizations that play a vital role in 
a veteran's transition. In one building a veteran will be able to find 
The Department of Veterans Affairs, The Department of Social Security, 
The Department of Labor, The USO, The Red Cross, and The Salvation 
Army, to name a few. With a center such as this, these stakeholders can 
come together and provide the most comprehensive approach to handling 
each individual veterans needs, and ensure that not one step, not one 
benefit, and not one piece of information is missed, ensuring that a 
veterans transition is complete rather than fragmented. We must always 
remember that homelessness is not an aberration, but rather it is 
always a result of leaving major steps of transition fragmented and 
unaddressed. We as a Nation must recognize that the magnitude of 
information and services that are available to veterans is vast, but 
the implementation is disjointed. We need to remedy the issue from the 
root of the problem, and that problem is fragmentation.
Ending Homelessness Among Veterans in Five Years
    On any given night in America, one third of all homeless people are 
men and women who once proudly wore our Nation's uniform. They live in 
boxes and under bridges. They are our forgotten heroes. To end this 
national disaster, a vigorous series of partnerships between all 
branches of Government and at all levels of Government must be forged 
with community groups and faith-based organizations. All sectors of the 
community must come together with the common goal of ending 
homelessness among veterans.
    However, these partnerships must result in veterans actually 
getting off the street and into housing rather than the same outreach 
techniques implemented in the past that do little more than to provide 
one day off of the streets for these veterans. Just last month our 
organization cosponsored our third Homeless Veterans Stand-Down in the 
city of Newark, NJ, which provided for a hot meal, clothes, haircut, 
physical checkups, to name a few. There were also various Government 
agencies in attendance to provide veterans with information on 
benefits. This is a day which on the surface appears like we did much 
to serve the veteran population, and it is a day that oftentimes 
garners us many accolades and thanks, but the truth, however, is that I 
consider these days to be among my greatest failures as the Executive 
Director of The G.I. Go Fund. When the event is over, I get into my car 
and drive home, while these men and women are right back where they 
started, on the streets. The event amounts to little more than one nice 
day and a thank you for your service for a man or a woman who so 
desperately needs more.
    This more can only come in the form of more housing and more beds 
to be made available for long-term transitional housing projects. 
Housing projects much like the one my organization along with the city 
of Newark, NJ, is pursuing, which will rehabilitate an historic 33,000-
square foot mansion that once belonged to the Frelinghuysen family of 
New Jersey to create a 100-bed long-term transitional housing facility 
for homeless veterans. This facility will provide for medical treatment 
to homeless veterans, job counseling, and training for homeless 
veterans, substance abuse counseling for homeless veterans, but most 
importantly, it will provide a chance for these men and women to 
finally, after many years in the cold, get off the streets and into a 
home of their own.
    It is unreasonable for us as a Nation to expect these homeless 
veterans to rectify their situation without an address and a home they 
can call their own. We must ask ourselves: where would perspective 
employers mail correspondences to without an address? Where would 
Government agencies that have benefits for these homeless veterans send 
information and payments to without an address? Still, more 
importantly, where will these homeless veterans, these brave men and 
women who fought to defend our streets not live on them, sleep, shower, 
and get dressed before their big interview without an address? The 
answer is nowhere, and that is why we need more long-term, transitional 
housing made available in every State in the country. In New Jersey, we 
currently have an estimated homeless veteran population of between 
7,000 and 9,000 on any given night, but we have less than 200 long-term 
transitional beds available.
    I am sure that we can all agree that this math does not add up, and 
if more beds that provide proper training and counseling and long-term 
shelter are not made available, it will be impossible to meet the 
aggressive goal of ending homelessness among veterans within 5 years 
that President Obama and VA Secretary Shinseki have vowed to do.
Conclusion
    Again I would like to thank you Chairman Menendez, Senator Vitter, 
and all the Members of the Committee for providing me the time to speak 
about this important issue of ending homelessness among veterans within 
5 years. While the task that lies before us is great, and the clock has 
already begun ticking, I leave here today deeply encouraged by the 
attention this Committee has shined on the issue. I am encouraged that 
the Chairman of this Subcommittee, Chairman Menendez, has in his 
congressional office a liaison that fights for veterans' issues in the 
State of New Jersey with a passion that is unmatched. And I am most 
encouraged that President Obama and Secretary Shinseki have made ending 
homelessness among veterans a top priority of the new Administration. I 
am encouraged but I am keenly aware of the enormity of the task at hand 
and I am ready to dig in and manifest the direction provided by the 
President and Congress. Thank You. I'll be glad to take your questions.
                                 ______
                                 

                   PREPARED STATEMENT OF LILA M. GUY
                            Iraq War Veteran
                           November 10, 2009
    My name is Lila M. Guy and I am an Iraq War veteran. I served in 
Kirkuk, Iraq, from September 2005 to September 2006. I was a soldier in 
the 101st Airborne Division, Fort Campbell, KY, and a SGT in CBRN 
(Chemical, Biological, Radiological, and Nuclear) Reconnaissance 
Platoon. When we were not doing CBRN missions we did convoy security. 
Before going on active duty I was in the Army Reserves for 8 years. For 
three of those years I was an Army Reserve Unit Administrator (GS-07). 
I am currently a full-time Nursing student at Widener University thanks 
to the VA Vocational Rehabilitation Program.
    Being in the Army meant the world to me because I was a soldier 
serving my country. I loved my job, and the soldiers I served with. We 
were like family. The down side was I had a real family that needed me. 
I was married with three children. About a month after returning from 
Iraq, my unit was informed that we would be redeploying to Iraq and had 
to begin training for that deployment. Knowing the struggles of 
deployment, my husband decided he was not going to go through it again 
and he left. Being a single mother and trying to do field training was 
hard and I could not do both. Especially with a child diagnosed with 
epilepsy. When my husband called me and told me that either I get out 
of the Army or he would divorce me and take my children, I had to make 
a decision. I chose my children. When I left Fort Campbell, KY, I had 
nothing and had no idea what I was going to do. My parents had a two-
bedroom house and I moved in with them. My three children and I lived 
in a 10'x12' room. My husband and I tried to get back together and I 
got pregnant. That was when things got worse for us. My husband decided 
he didn't want any more children and I was not willing to have an 
abortion. Things were already tight for us and my father told me that 
there was no way we could stay there with the new baby. At that point I 
had been diagnosed with Post Traumatic Stress Disorder and was 
receiving disability from the VA. I was grateful for the help but it 
just was not enough to raise four children. Faced with this dilemma, I 
sent an e-mail to Congressman Joe Sestak asking for help. I had not 
been able to find a job but was attending college. That next week I 
received a phone call from a Social Worker named Stephen Bennett, at 
the Philadelphia VA. They told me they may be able to help. At that 
time the HUD-VASH program was new and they had not approved any housing 
yet. I was happy to know there was help for me. Steve told me that he 
was trying to do two jobs at once and to be patient and soon after came 
Frank McGuire. Frank has been instrumental in helping me get a house. 
During that time I watched as he struggled to try to get housing over 
100 veterans. You would think that people would want to rent to a 
veteran but that was not the case. The HUD-VASH program coordinators 
were instrumental in speaking on my behalf to landlords in order to get 
a place and after moving in helping me to communicate with my landlord 
in getting things that need to be done in the house. I believe very 
strongly in the HUD-VASH program because I don't know where I would be 
without their help. There are many soldiers out there that don't think 
anybody cares and don't know that there is help out there. I had a 
focus and that was getting a place to stay for my children, so I didn't 
give up. This program needs to be able to reach out to those veterans 
and let them know that yes their service to the military is over but 
that the Government still cares about their welfare. When soldiers are 
no longer an asset they are thrown again and left to fend for 
themselves in an unfamiliar world. Anybody who has spent time on active 
duty and tried to integrate to civilian life will tell you, it is a 
different world. The HUD-VASH Program helps veteran to navigate this 
unfamiliar territory. I am not just speaking on the behalf of the HUD-
VASH program, I am speaking on behalf of all the veterans who are still 
homeless and the ones coming home who will become homeless. They are my 
focus and if I could be standing there guiding them to the help they 
need I would. These veterans have served their country well and I 
believe the least they can get for their service I help finding a place 
to live. Thank You.
                                 ______
                                 

                   PREPARED STATEMENT OF WILLIAM WISE
                          Vietnam War Veteran
                           November 10, 2009
    Thank you, Chairman Menendez, and Members of the Subcommittee for 
giving me the opportunity to testify today and for your leadership in 
addressing the critical issue of Veterans' Homelessness.
    My name is William Wise. I am currently a participant in a 
residential homeless Veterans' program sponsored by the New Jersey 
Department of Military and Veterans Affairs called Veterans Haven. The 
2-year program, has given me the opportunity to put my life back 
together.
    Let me provide you with some background into my situation.
    I'm a 57-year-old man originally from Washington, DC. I'm a Veteran 
of the Viet Nam War. I had been a productive member of the community--
holding a job and owning my own home.
    But I made a number of bad choices due to addiction and mental 
health issues. Over time I lost my job, lost my home, and ended up 
residing in my sister's basement. For almost 3 years I remained 
homeless.
    In order to try to address my issues, I tried short-term 4-month 
programs. These programs never provided me with enough time to deal 
with the core issues that I needed to address. And without addressing 
those core issues I continued to falter.
    Finally I was referred to Veterans Haven.
    Veterans Haven, a 2-year residential program, has allowed me the 
time to deal with the core issues that caused me to become jobless and 
homeless. There's an analogy I gave to the New Jersey Department of 
Military and Veterans' Affairs Staff when I was first asked to talk 
about my situation and possibly provide testimony today.
    My situation was comparable to someone moving from room to room 
blowing a fuse each time they entered a new room. The short term 
solution had been to try to fix the fuse. But that was only a temporary 
fix because the problem was actually the wiring.
    I am currently nearing the end of my participation in the Veterans 
Haven program. As I think you can tell, the program has made a 
difference in my life. It is has been an opportunity to deal with 
issues that have existed and escalated over a period of many years. 
Programs like this should be available to more Veterans allowing them 
the opportunity to get back on their feet and resume normal lives.
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR VITTER
                     FROM MERCEDES MARQUEZ

Q.1. Ms. Marquez, in your testimony you detail very thoroughly 
both your dedication and the Administration's dedication to 
ending homelessness among our veterans. This is an 
extraordinarily laudable goal. One that I believe every member 
of Congress can support. In your testimony you note that the 
Housing Choice Voucher Program, the HOME Program, and the CDBG 
Program and Homeless Assistance Grants all provide ``great 
flexibility so that communities can use these Federal resources 
to meet their local needs.'' Given that we are talking about 
billions of dollars of taxpayer money what, if any, additional 
flexibility do you all need in order to maximize your 
resources? That is, are there rules and regulations that could 
be streamlined in order to help you better carry out your 
charge to end homelessness for veterans? I'm interested to hear 
any suggestions you may have.

A.1. Answer not received by time of publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR VITTER
                     FROM MELANIE LILLISTON

Q.1. In your response to Chairman Menendez you said that 
everyone is going to have a success story that is unique to 
themselves and cited providing organizations and communities 
with the flexibility to provide services that are unique to 
each veteran as essential to ending homelessness for veterans. 
Please tell me specifically what more Congress can do to 
provide that essential flexibility.

A.1. Answer not received by time of publication.

</pre></body></html>
